FP FH
!i

1
2
3

;c
Jolm Dan Bumplm,
221 South Myrtl<
Edwardsville. Ill ns 6202*510
(480) 232-3350
sensa357@.yahodBom

5

6

W'j, 2 i

UNITED STATES FEDERAL DISTRICT COURT
FOR THE
SOUTHERN DISTRICT OF ILLINOIS

4

Case No. :

JOHN DAN BUMPBUS.. JR, PRO SE,

7

Plaintiff,

8

10
II
12

3

CLERK, U.S DISTRICT COURT
SOUTHERN DISTRICT UF ILLINOIS
CAST ST, i.OUiS OFFICE

\(e'5ll-ynY~D&lV

FIRST EMPLOYMENT DISCRIMINATION
COMPLAINT FOR DAMAGES UNDER TITLE VII,
THE AMERICANS WITH DISABILITIES ACT, THE
GENETIC INFORMATION NONDISCRIMINATION
ACT. THE AGE DISCRIMINATION IN
EMPLOYMENT ACT, UNLAWFUL DISCHARGE
FROM EMPLOYMENT, RETALIATION, AND THE
INTENTIONAL INFLICTION OF EMOTIONAL
DISTRESS

vs.

9

II uss sirs3 t ?av

UNIQUE PERSONNEL CONSULTANTS, KRISTA
FINDLAY. JENNIFER KATHERINE YATESWELLER OF HENNESSY AND ROACH, P.C.,
HENNESSY AND ROACH. P.C.. ANDREW G.
TOENNIES, AND SYNERGY COVERAGE
SOLUTIONS L.L.C.
Defendants

13
14
15

EMPLOYMENT

16

DISCRIMINATION COMPLAINT

17
18

Plaintiff brings a .complaint against UniQue Personnel Consultants, Inc., Krista Findlay, Jennifer Katherine

19

Yates-Weller, of Hennessy & Roach, P.C., Hennessy & Roach, P.C., Andrew G. Toennies, and Synergy Coverage

20

Solutions, L.L.C., for discrimination as set forth below.

21

Plaintiff DOES NOT demand a jury trial.
I. PARTIES

22
23
24

25
26

Name and Address of Plaintiff:
1.

Name and Address of Defendants:
1.

27
28

29

Plaintiff John Dan Bumphus, Jr., resides at 221 South Myrtle, Edwardsville, Illinois, 62025-1510.

Defendant UniQue Personnel Consultants Inc.’s, corporate address is 217 W. Clay, Troy, IL,
62294-1162.

2.

Defendant Krista Findlay is the Human Resources Manager/office agent for UniQue Personnel
Consultants Inc.’s Glen Carbon, Illinois, office at 19 Junction Dr., Glen Carbon, Illinois 62034.

30

31
32

FIRST EMPLOYMENT DISCRIMINATION COMPLAINT FOR DAMAGES UNDER TITLE VII, THE
AMERICANS WITH DISABILITIES ACT. THE GENETIC INFORMATION NONDISCRIMINATION ACT,
THE AGE DISCRIMINATION IN EMPLOYMENT ACT, UNLAWFUL DISCHARGE FROM EMPLOYMENT,
RETALIATION, AND THE INTENTIONAL INFLICTION OF EMOTIONAL DISTRESS -1

■t
3.

1

Defendant Jennifer Katherine Yates-Weller is a partner and associate attorney at the law firm of

2

Hennessy & Roach, P.C., with her branch office located at 415 North 10th Street, Suite 200, St.

3

Louis, MO 63101.
4.

4

Defendant Hennessy & Roach, P.C., is a seven-office multistate law firm with its main corporate
office located at 140 S. Dearborn, 7th Floor, Chicago, EL 60603.

5
5.

6
7

Defendant Attorney Andrew G. Toennies is an associate attorney working with the law firm of
Lashly & Baer, P.C., 714 Locust. St. Louis, Missouri 63101.

8

6.

9

Defendant Synergy Coverage Solutions, L.L.C., is a Workers’ Compensation Insurance entity
with their main office located at 217 South Tryon Street, Charlotte, NC 28202.

10
11
12
13

The plaintiff was employed, but is no longer employed by the defendant UniQue Personnel Consultants,
Inc. The alleged discrimination began on or about July 13,2015.

14
n. JURISDICTION

15
16
17

1.

discriminated against Plaintiff because of Plaintiff’s:

18

Race (Title VII of the Civil Rights Act of 1967, as amended, 42 U.S.C. Section 2000e-5)

19

Age (The Age Discrimination in Employment Act, 29 U.S.C. Section 621)

20

Disability (The Americans with Disabilities Act, 42 U.S.C. Section 12101)

21

Genetic Information (Genetic Information Nondiscrimination Act, Pub. L. 110-233,122 Stat. 881,

22

enacted May 21,2008)

23
24

2.

Plaintiff has filed a joint charge before the United States Equal Employment Opportunity Commission
(EEOC) and the Illinois Department of Human Rights (IDHR) relating to this claim of employment

25

discrimination.

26
27

Jurisdiction over this claim is based on 28 U.S.C. Section 1331. Plaintiff alleges that the defendants

3.

Plaintiff’s Right to Sue Notice from the EEOC was received on or about December 23,2015.

28
29
30
31
32

HI. STATEMENT OF LEGAL CLAIM
Plaintiff is entitled to relief in this action because:
FIRST EMPLOYMENT DISCRIMINATION COMPLAINT FOR DAMAGES UNDER TITLE VII, THE
AMERICANS WITH DISABILITIES ACT, THE GENETIC INFORMATION NONDISCRIMINATION ACT,
THE AGE DISCRIMINATION IN EMPLOYMENT ACT, UNLAWFUL DISCHARGE FROM EMPLOYMENT,
RETALIATION, AND THE INTENTIONAL INFLICTION OF EMOTIONAL DISTRESS - 2

1

1.

My name is John Dan Bumphus, Jr.

2

2.

My address is 221 S. Myrtle, Edwardsville, Illinois, 62025-1510.

3.

My phone number is (480) 232-3350.

4.

I am 61 year-old, disabled, African-American male.

5.

From June 21,2015 to July 2,2015,1 worked full time in a third shift position for the Defendant UniQue

3
4
5
6
7

Personnel Consultants as an operator on the Production Wiring Rework Tables, at the YAZAKI Warehouse

8

in Edwardsville, Illinois.

9

6.

10

From July 5,2015, through July 10,2015,1 was promoted, and began working full time in a third shift
position for the Defendant UniQue Personnel Consultants as a lead product coordinator, or “LPC”,

11
entrusted in the immediate overview of running a rework table, at the YAZAKI Warehouse in Edwardsvilh,
12
Illinois.

13
14

7.

From July 13,2015, through July 16,2015,1 worked full time in a second shift position for the Defendant

15

UniQue Personnel Consultants as a lead product coordinator, or “LPC”, entrusted in the immediate

16

overview of running one to three rework tables, at the YAZAKI Warehouse in Edwardsville, Illinois.

17

8.

Years before and during my June 11,2015, initial interview for employment at Defendant UniQue

18
Personnel Consultants, of Glen Carbon, Illinois, I had been officially designated and acknowledged, by

19
20

way of the Social Security Administration, to be a disabled person living with the history of having had the

21

generalized anxiety disorder psychological symptoms of a Post-Traumatic Stress Disorder (PTSD). As of

22

January 20,2015, it was noted in my Axis EH Diagnosis, by my treating psychiatrist Mirza Baig, M.D., of

23

Centerstone, in Alton, Illinois, that the acute medical conditions and physical disorders I live with, which

24
might impact on my psyche, include mild obesity, sleep apnea, heart attack, ruptured aorta, hypertension,
25
spinal stenosis, hernia surgery on the right side, and problems with my kidney function.

26
27

9.

On July 14,2015, while working as a second shift LPC, I received a reasonable accommodation by

28

telephone from Defendant Krista Findlay the Human Resources Manager/office agent for Defendant

29

UniQue Personnel Consultants’ Glen Carbon, Illinois, office regarding an unscheduled overtime

30

assignment which consisted of a forced repeat performance of a Production Wiring Rework Table operator

31
32

FIRST EMPLOYMENT DISCRIMINATION COMPLAINT FOR DAMAGES UNDER TITLE VII, THE
AMERICANS WITH DISABILITIES ACT, THE GENETIC INFORMATION NONDISCRIMINATION ACT,
THE AGE DISCRIMINATION IN EMPLOYMENT ACT, UNLAWFUL DISCHARGE FROM EMPLOYMENT,
RETALIATION, AND THE INTENTIONAL INFLICTION OF EMOTIONAL DISTRESS - 3

1

task, ofthe loading of a large, and somewhat awkward, car component into the designated crates* due to the

2

fact that I have a rod and two pins in my lower back, from a 2006 spinal fusion surgery, and the bending,

3

straining, and lifting was causing discomfort to my back at the point which I perceived to be the (L4-5)

4
point of that surgery.
5
6

10. On July 17,2015, Defendant Krista Findlay the Human Resources Manager/office agent for Defendant

7

UniQue Personnel Consultants’ Glen Carbon, Illinois, office, abruptly rescinded, without explanation, the

8

aforementioned reasonable accommodation granted to me three days earlier. I, at that time presented

9

Defendant Krista Findlay with personal and private medical documentation which I had obtained that

10

morning from my primary care physician, David Yablonsky, D.O., of Associated Physicians Group, in

11
12
13

Maryville, Illinois, in an effort to point out for her the “anterior and posterior fusion instrumentation”
within my L4-5 vertebrae, along with presenting her a copy of my 2014 book “Necessary Candor”, wherein

14

I underlined and discussed with her the passages in pages 80 & 81 which acknowledged my ongoing

15

psychological treatment, as a disabled employee, for having had the generalized anxiety disorder

16

psychological symptoms of a Post-Traumatic Stress Disorder (PTSD). Nevertheless, Defendant Krista

17

Findlay thereby unlawfully dismissed me from employment with Defendant UniQue Personnel Consultants

18
19

Inc., due to my reasonable accommodation request, with the caveat that unless I present to her, a signed

20

physician’s statement, “on their office stationary”, which medically substantiated my back-pain claims, my

21

complaints “cannot be officially considered by corporate”.

22
23

11. On July 23,2015,1 presented, to Defendant Krista Findlay the Human Resources Manager/office agent for
Defendant UniQue Personnel Consultants’ Glen Carbon, Illinois, a signed and written statement from

24
Associated Physician’s Group in Edwardsville, IL, which requested that I, John Bumphus, be exempted
25
26

from mandatory overtime that requires heavy lifting. Upon receipt of the statement, Defendant Krista

27

Findlay said that she would “pass it on to corporate”, and get back to me with their position “by the end of

28

the day”. Later that afternoon, Defendant Krista Findlay notified me that the statement “would be placed in

29

my file”, and offered no further comment

30

12. I have no disciplinary records for my entire employment with Defendant UniQue Personnel Consultants,

31
32

FIRST EMPLOYMENT DISCRIMINATION COMPLAINT FOR DAMAGES UNDER TITLE VII, THE
AMERICANS WITH DISABILITIES ACT, THE GENETIC INFORMATION NONDISCRIMINATION ACT,
THE AGE DISCRIMINATION IN EMPLOYMENT ACT, UNLAWFUL DISCHARGE FROM EMPLOYMENT,
RETALIATION, AND THE INTENTIONAL INFLICTION OF EMOTIONAL DISTRESS - 4

1

13. On July 28,2015,1 presented a filed 6-page informal discrimination complaint to the Defendant UniQue

2

Personnel Consultants’ Glen Carbon, Illinois office. 1 also presented individual sealed-envelope copies of

3

the complaint to Defendant Krista Findlay, Dana Felton, and Donna May. I have received no response or

4

comment regarding my informal complaint from Defendant UniQue Personnel Consultants, Defendant

5
Krista Findlay, or either of the two other recipients of that written communication.
6
7

14. On August 6,2015,1 filed a federal joint EEOC/Illinois Department of Human Rights Charge of

8

Discrimination, which stated in its content my belief that I had been discriminated against based on my

9

disability, in that 1 was granted, and then subsequently denied, as a disabled employee with a medical

10
11

history of Post-Traumatic Stress Disorder (PTSD), a reasonable accommodation, before subsequently being
discharged, and then terminated from employment, in violation of my civil rights under The Americans

12
13
14

with Disabilities Act as amended.
15. On August 14,2015, the I filed an Illinois Workers’ Compensation Commission claim #15WC027577,1

15

personally hand-delivered and presented another of complaint letter to David Scheibel, Defendant UniQue

16

Personnel Consultants, Inc., corporate “workers’ compensation specialist”, at the UniQue Personnel

17

corporate offices in Troy, Illinois. This letter of complaint detailed how, that aside from the Defendant

18
UniQue Personnel Consultants’ Glen Carbon, Illinois, office’s August 13,2015, declination, failure and
19
20
21
22
23
24

refusal to accept, and/or assist me in the proper filing of my notice of workplace injury, that the Defendant:
corporation was also blatantly in clear violation of 820ILCS 305 Section 6(a): Workplace Notice, as well.
16. On September 9,2015, the Defendant UniQue Personnel Consultants, through their attorney Defendant
Andrew G. Toennies, of Lashly & Baer, P.C„ of St. Louis, Missouri, knowingly filed a false statement in
response to my August 6,2015 joint EEOC/Illinois Department of Human Rights Charge of Discriminatior

25
26

wherein defendant UniQue Personnel Consultants “Supervising Consultant” Krista Findlay falsely

27

declared that I had “indicated on his (my) application that he (I) had no physical restrictions, whereas there

28

is, clearly, no such indication whatsoever in any of my June 11,2015, job application paperwork

29

documentation.

30
31
32

FIRST EMPLOYMENT DISCRIMINATION COMPLAINT FOR DAMAGES UNDER TITLE VII, THE
AMERICANS WITH DISABILITIES ACT, THE GENETIC INFORMATION NONDISCRIMINATION ACT,
THE AGE DISCRIMINATION IN EMPLOYMENT ACT, UNLAWFUL DISCHARGE FROM EMPLOYMENT,
RETALIATION AND THE INTENTIONAL INFLICTION OF EMOTIONAL DISTRESS - 5

17. On November 23,2015,1 was victimized, and illegally bullied as an unrepresented, disabled, injured

1
2

worker with a medical history of Post-Traumatic Stress Disorder, in what was a jointly undertaken criminal

3

conspiracy activity, pursuant to Section 1 Bl.3(a)(1)(b) (Relevant Conduct (Factors that Determine the

4

Guideline Range)) of the Judiciary and Judicial Procedure Standards of the United States Sentencing

5
Commission (28 U.S.C. Section 994(a)), which was orchestrated, and perpetrated, by Defendant Attorney
6
7

Jennifer Katherine Yates-Weller #2795, who is of, and is a partner with Defendant Hennessy & Roach,

8

P.C., of St. Louis, Missouri, on behalf of Defendant UniQue Personnel Consultants, and also on behalf of

9

their Workers’ Compensation insurer, Defendant Synergy Coverage Solutions L.L.C., as she knowingly

10
11

created, presented, fraudulently signed and personally affirmed for Proof of Service as an attorney, two (2)
forged Subpoenas Duces Tecum, under the auspices and in clear violation of Chapter II §7030.50-

12
13
14

Subpoena Practice, 50 ILLINOIS ADMINISTRATIVE CODE, Illinois Workers’ Compensation Rules
Governing Practice by U S. Mail, to myself, to Dr. Yablonsky at Associated Physicians Group in

15

Edwardsville, Illinois, and to Dr. Baig at Wellspring Resources in Alton, Illinois which is now known as

16

Centerstone, in an effort to illicitly gain unauthorized access to my personal medical records, so as to

17
18

attempt to avoid the payment of my Illinois Workers’ Compensation benefits, and under Section §17-3.
Forgery, of the Illinois Compiled Statutes, which recognizes forgery as a Class 3 felony.

19
20
21

Based on the foregoing, I, John D. Bumphus, Jr., hereby allege that the collective Defendants have

22

discriminated against me based on my:

23

Race (Title VII of the Civil Rights Act of 1967, as amended, 42 U.S.C. Section 2000e-5)

24

Age (The Age Discrimination in Employment Act, 29 U.S.C. Section 621)

25

Disability (The Americans with Disabilities Act, 42 U.S.C. Section 12101)

26

Genetic Information (Genetic Information Nondiscrimination Act, Pub. L. 110-233,122 Stat 881,

27

enacted May 21,2008), and are culpable for having also committed against me the torts of

28

Unlawful Discharge from Employment,

29

Retaliation, and

30

The Intentional Infliction of Emotional Distress, with malice and reckless indifference.

32

srs—SKc1—skSao,

THE AGE DISCRIMINATION IN EMPLOYMENT ACT, UNLAWFUL DISCHARGE FROM EMPLOYMENT,
RETALIATION, AND THE INTENTIONAL INFLICTION OF EMOTIONAL DISTRESS - 6

IV. FACTS IN SUPPORT OF CLAIM

1
2

1.

The Plaintiff has been, years before his June 11,2015 initial interview for employment began at
UniQue Personnel Consultants of Glen Carbon, Illinois, officially designated and acknowledged, by

3

way of the Social Security Administration, to be a disabled person living with the history of having hac

4

the generalized anxiety disorder psychological symptoms of a Post-Traumatic Stress Disorder (PTSD).

5

As of January 20,2015, five months before he became employed by the respondent, it was noted in his

6

Axis III Diagnosis, by his treating psychiatrist Mirza Baig, M.D., of Cenlerstone/Wellspring Resources

7

in Alton, Illinois, that the acute medical conditions and physical disorders he lives with, which might

8

impact on his psyche, include mild obesity, sleep apnea, heart attack, ruptured aorta, hypertension,

9

spinal stenosis, hernia surgery on the right side, and problems with his kidney function.

10

2.

When the plaintiff initially interviewed for employment (on June 11,2015) with Defendant UniQue
Personnel Consultants, he personally informed the interviewer that he did not want to work at any job

11

which did not pay at least $ 10 per hour. On the morning of June 17,2015, the plaintiff was

12

telephonically contacted by UniQue on June 17,2015, and after having been criminal background

13

screened, checked and researched by Precise Hire, of McKinney, Texas, before then being

14

subsequently drug screened by Defendant UniQue Personnel Consultants at their Glen Carbon, Illinois

15

office, he was offered a position which paid him $10.50 per hour, which was working as an operator

16

on the 3rd shift Production Wiring Rework Tables, at the YAZAKI Warehouse in Edwardsville,

17

Illinois.

18

3.

On June 21,2015, which was the plaintiff’s very first night of employment for Defendant UniQue
Personnel Consultants at the YAZAKI Warehouse in Edwardsville, Illinois, he spoke directly to the

19

Defendant UniQue Personnel’s On Site Coordinator, Dana Felton, and informed her that if his “crew”

20

of two people was not keeping up with the pace of production with the other tables loading one

21

particularly large, and somewhat awkward, car component into the designated crates, it was because he

22

has a rod and two pins in his lower back, due to a 2006 spinal fusion surgery, and that the bending,

23

straining, and lifting was causing discomfort to his back at the point which he perceived to be the (L4-

24

5) point of that surgery.

25
26
27

4.

On July 2, 2015, after having worked though the first nine days of employment at a productive pace,

on Production Wiring Rework Table tasks which did not cause discomfort to his (L4-5) spinal area, the
plaintiff was informed by Defendant UniQue Personnel Consultants Shift Supervisor “Darron”, that
since he was “already getting paid for it” (at the rate of $ 10.50 per hour), the beginning of his next

28
29

(third) work week (beginning July 5,2015), would be spent training to be a lead product coordinator,
or “LPC”. Accordingly, dining that third week of working the 3rd shift at the YAZAKI Warehouse in

30

Edwardsville, Illinois for Defendant UniQue Personnel Consultants, from Sunday night, July 5,2015,

31

until Friday morning, July 10,2015, the plaintiff successfully accomplished the functioning

32

FIRST EMPLOYMENT DISCRIMINATION COMPLAINT FOR DAMAGES UNDER TITLE VII, THE
AMERICANS WITH DISABILITIES ACT, THE GENETIC INFORMATION NONDISCRIMINATION ACT,
THE AGE DISCRIMINATION IN EMPLOYMENT ACT, UNLAWFUL DISCHARGE FROM EMPLOYMENT,
RETALIATION, AND THE INTENTIONAL INFLICTION OF EMOTIONAL DISTRESS - 7

1

requirements of LPC training without any excessive or intrusive job-pace restrictive accommodations.

2

The requirements of his LPC train ing did not at any time require that he resume the initial bending,
straining, and lifting task which had caused the discomfort to his back during his inaugural June 21,

3

2015, working shift as an operator on the Production Wiring Rework Tables, at the YAZAKI

4

Warehouse in Edwardsville, Illinois.

5

5.

On Sunday, July 12,2015, in anticipation of beginning his fourth week of working the 3rd shift at the

6

Yazaki warehouse in Edwardsville, IL for UniQue Personnel Consultants, the plaintiff arrived at the

7

job-site shortly after 10 p.m. After waiting a while, and not getting in to the warehouse, he called and

8

left a message for UniQue Personnel Yakazi Site Coordinator Dana Felton on her personal cellphone

9

number. Shortly thereafter, Coordinator Felton returned his call and informed him that the 3rd shift had
been dropped as of Friday, July 10,2015, and that “someone should have called” him with that

10

information after he had picked up his check at the Unique office that day. After the plaintiff inquired

11

as what that occurrence would do to his employment status, Ms. Felton informed him that he could

12

move to either 1st or 2nd shift at the Yazaki warehouse. When he asked if it would be at the same rate of

13

pay ($10.50 per hour), Ms. Felton stated that the rate he was currently receiving included a 50 cent

14

shift differential, which would be reduced to $10.25 for the 2nd shift, and to $10.00 per hour for lsl shift.

15

The plaintiff then told her that I would prefer the 2nd shift 25 cent reduction, and then asked if it would

16

be for the same LPC training. She informed him that it would be, and that he would be continuing his

17

development as an LPC at Yazaki.

18
19

6.

On July 13,2015, at the end of the plaintiff’s first 2nd shift tour of working, as an LPC at the Yazaki
warehouse in Edwardsville, IL for UniQue Personnel Consultants, after having stood upright, and on
his feet the entire shift, he was confronted by UniQue Personnel 2nd Shift Supervisory employee Donna

20

May, who abruptly greeted him with, “Welcome to 2nd shift, we’ve got mandatory overtime here!” No

21

one during his brief relationship with UniQue, or at the Yazaki warehouse, had ever said anything to

22

him about mandatory overtime being a requirement of employment. Nevertheless, he acquiesced and

23

initially assisted in the collective tasks of completing some uncompleted after-hours crate loading left

24

over by another crew. However, after about an hour of pushing himself, while doing the same sort of

25

Production Wiring Rework Table tasks of bending, straining, and lifting the exact same component car

26

part which had caused the discomfort to his back during his inaugural, June 21,2015,3rd shift tour at
the warehouse, he subjectively felt that a clear and absolute return of his lower back pain, which he

27
28

noted in the region near the site of his 2006 spinal fusion surgery, indicated that he should stop
immediately. He spoke directly to 2nd shift UniQue Personnel Consultants’ Supervisor Donna May,

29

and informed her of the conversation regarding his back which he had with 3rd shift UniQue Personnel

30

Consultants’ Supervisor Dana Felton on his initial, June 21,2015 night of 3rd shift work at Yazaki.

31

Supervisor Donna May was not pleased that he was leaving, and she informed the plaintiff that she

32

FIRST EMPLOYMENT DISCRIMINATION COMPLAINT FOR DAMAGES UNDER TITLE VII, THE
AMERICANS WITH DISABILITIES ACT, THE GENETIC INFORMATION NONDISCRIMINATION ACT,
THE AGE DISCRIMINATION IN EMPLOYMENT ACT, UNLAWFUL DISCHARGE FROM EMPLOYMENT,
RETALIATION, AND THE INTENTIONAL INFLICTION OF EMOTIONAL DISTRESS - 8

1

“would have to talk this over with (Supervisor) Dana (Felton)”. The plaintiffs reply was, “That sounds

2

fair.”

3

7.

The next morning, Tuesday, July 14,2015, after not getting his former UniQue Personnel Consultants
3rd Shift Supervisor Dana Felton by her cellphone, the plaintiff called the Glen Carbon, IL, office of

4

UniQue Personnel Consultants and spoke with “Jamie”, to whom he expressed his mandatory-overtime,
5

lower-back-pain, dilemma. Jamie directly referred him to Krista Findlay, to whom I also retold the

6

story of the previous night’s event Krista Findlay right then and there informed the plaintiff that she

7

knew nothing of any UniQue employee ever being forced into ANY “mandatory overtime” situation,

8

and that for anyone to push at him to “work through” an acknowledged pain from a previous surgery

9

was, also “unacceptable”. Ms. Findlay then assured him that she would “speak with” Dana, and then
went on to assure him that regarding having to explain his back-pain issue, that “it won’t happen

10

again”.

11
12

8.

During the plaintiffs sole week of 2nd shift LPC work at the Yazaki warehouse for UniQue Personnel
Consultants, beginning Monday, July 13,2015, he serviced and audited one table on Monday, two

13

tables on Tuesday, July 14, 2015, three tables on Wednesday, July 15,2015, and two tables again on

14

Thursday, July 16,2015. On Tuesday and Wednesday, the plaintiff stayed after shift to ensure the

15

correctness of his table auditing sheets. At the end of the evening on Thursday, July 16,2015, however,

16

a part was actually misplaced from one of the cartons and into another one. The “hunting down” of the

17

“lost part” took over an hour for the plaintiff, and the YAZAKI warehouse contact person/table

18

supervisor, “Dan” to effectively locate. As he was then and subsequently preparing to gather his
belongings for his departure from work, he was once again confronted by UniQue Personnel

19

Consultants 2nd shift Supervisor Donna May, who once again intimidatingly attempted to taunt and

20

question him about the validity of his 2006 spinal-fusion surgery, lower back condition, as to if he was

21

leaving his fellow employees again while there was mandatory overtime to do.

22

23

9.

On July 14,2015, while working as a second shift LPC, at the YAZAKI warehouse, in Edwardsville,
Illinois, the plaintiff received a reasonable accommodation by telephone from Krista Findlay, the

24
25

Human Resources Manager/office agent for respondent UniQue Personnel Consultants’ Glen Carbon,
Illinois, office, regarding an unscheduled overtime assignment which consisted of a forced repeat

26

performance of a Production Wiring Rework Table operator task, which was the loading of a large, anc

27

somewhat awkward, car component into the designated crates, due to the fact that the plaintiff has a

28

rod and two pins in his lower back, from a 2006 spinal fusion surgery, and the bending, straining, and

29

lifting was causing discomfort to his back at the point which he perceived to be the (L4-5) point of that

30
31
32

surgery.
10. On July 17,2015, Krista Findlay, the Human Resources Manager/office agent for respondent UniQue
Personnel Consultants’ Glen Carbon, Illinois, office, abruptly rescinded, without explanation, the
FIRST EMPLOYMENT DISCRIMINATION COMPLAINT FOR DAMAGES UNDER TITLE Vff, THE
AMERICANS WITH DISABILITIES ACT, THE GENETIC INFORMATION NONDISCRIMINATION ACT,
THE AGE DISCRIMINATION IN EMPLOYMENT ACT, UNLAWFUL DISCHARGE FROM EMPLOYMENT,
RETALIATION, AND THE INTENTIONAL INFLICTION OF EMOTIONAL DISTRESS - 9

1
2
3
4

aforementioned reasonable accommodation granted to the plaintiffjust three days earlier. The plaintiff,
at that time, presented Krista Findlay with personal and private medical documentation which he had
requested and obtained that very morning from his primary care physician, David Yablonsky, D.O., of
Associated Physicians Group, in Maryville, Illinois, in an effort to point out, for her, the “anterior and
posterior fusion instrumentation” within his L4-5 vertebrae, along with presenting her a copy of his

5

2014 book “Necessary Candor”, wherein he underlined and discussed with her the passages in pages

6

80 & 81 which acknowledged his ongoing psychological treatment, as a disabled employee, for having

7

had die generalized anxiety disorder psychological symptoms of a Post-Traumatic Stress Disorder

8

(PTSD). Nevertheless, Krista Findlay thereby unlawfully dismissed the plaintiff from employment

9
10

with Defendant UniQue Personnel Consultants, with the caveat that unless he present to her, a signed
physician’s statement, “on their office stationary”, which medically substantiated his claims, his
complaints “cannot be officially considered by corporate”. On Thursday morning, July 23,2015, the

11
12

plaintiff presented to Krista Findlay of respondent UniQue Personnel Consultants, a signed and written
statement from Associated Physician’s Group in Edwardsville, IL, which requested that the plaintiff,

13

John Bumphus, be exempted from mandatory overtime that involves heavy lifting. Upon receipt of the

14

statement, Ms. Findlay said that she would “pass it on to corporate”, and get back with the plaintiff,

15

with their position “by the end of the day”. Later that afternoon, Ms. Findlay notified him that the

16

statement “would be placed in (his) file”, and offered no further comment

17

11. The plaintiff suffered an immediate, incomprehensible, severe emotional shock on July 17,2015, as
an appropriate, reasonable-person response to the unexplained arbitrary reversal of the July 14,20015,

18
19

reasonable accommodation afforded him, before being summarily dismissed from employment by
Respondent UniQue Personnel Consultants’ Human Resources Manager/office agent Krista Findlay,

20

which has resulted in a mental-mental injury, caused by the overt, unreasonable, unlawful exacerbation

21

and torment of his existing, medically-acknowledged, posttraumatic stress disorder psychological

22

23
24
25

condition,
12. On August 6,2015, the plaintiff filed an EEOC/Illinois Department of Human Rights Charge of
Discrimination, which stated in its content his belief that he had been discriminated against based on
his disability, in that he was granted, and then subsequently denied, as a disabled employee with a
history of Post-Traumatic Stress Disorder (PTSD), a reasonable accommodation before subsequently

26
27

being discharged and then terminated from employment in violation of his civil rights under The
Americans with Disabilities Act as amended. In a September 9,2015 filing by the Defendant here of

28

their “PETITION STATEMENT OF UNIQUE PERSONNEL CONSULTANTS, INC. TO NOTICE

29

OF CHARGE OF DISCRIMINATION FILED BY JOHN BUMPHUS” prepared in response to the

30

plaintiff’s EEOC charge, which was presented to the IllinoisDepartment of Human Rights, by attorney

31

Defendant Andrew G. Toennies, of Lashly & Baer, P.C., of St Louis, Missouri, Defendant UniQue

32

FIRST EMPLOYMENT DISCRIMINATION COMPLAINT FOR DAMAGES UNDER TITLE VII, THE
AMERICANS WITH DISABILITIES ACT, THE GENETIC INFORMATION NONDISCRIMINATION ACT,
TEE AGE DISCRIMINA'nON IN EMPLOYMENT ACT, UNLAWFUL DISCHARGE FROM EMPLOYMENT,
RETALIATION, AND THE INTENTIONAL INFLICTION OF EMOTIONAL DISTRESS - 10

1

Personnel Consultants “Supervising Consultant” Defendant Krista Findlay falsely and deliberately

2

declared that tire plaintiff had “indicated on Ms application that he had no physical restrictions”,

3
4

5

whereas there is, clearly, no such indication whatsoever in any of his June 11,2015, job application
paperwork documentation.
13. On November 23, 2015, tire plaintiff was victimized, and illegally bullied as an unrepresented, disablec,
injured worker with a medical history of Post-Traumatic Stress Disorder, in what was a jointly

6

undertaken criminal conspiracy activity, pursuant to Section 1 B1.3(a)(l)(b) (Relevant Conduct

7

(Factors that Determine the Guideline Range)) of the Judiciary' and Judicial Procedure Standards of

8

the United States Sentencing Commission (28 U.S.C. Section 994(a)), which was orchestrated, and

9

perpetrated, by respondent Attorney' Jennifer Katherine Yates-Weller #2795, w'ho is of, and is a partner

10
11
12
13

with Defendant Hennessy & Roach, P.C, of St. Louis, Missouri, on behalf of respondent UniQue
Personnel Consultants, and also on behalf of their Workers1 Compensation insurer, Synergy' Coverage
Solutions L.L.C., as she knowingly created, presented, fraudulently signed and personally affirmed for
Proof of Sendee as an attorney, two (2) forged Subpoenas Duces Tecum, under die auspices and in
clear violation of Chapter n §7030.50-Subpoena Practice, 50 ILLINOIS ADMINISTRATIVE CODE,

14

Illinois Workers’ Compensation Rules Governing Practice by' U.S. Mail, to myself, to Dr. Yablonsky

15

at Associated Physicians Group inEdwardsville, Illinois, and to Dr. Baig at Wellspring Resources in

16

Alton, Illinois which is now known as Centerstone, in an effort to illicitly' gain unauthorized access to

17

my personal medical records, so as to attempt to avoid and delay die payment of my Illinois Workers’

18
19

Compensation benefits, and under Section §17-3. Forgery, of die Illinois Compiled Statutes, which
recognizes forgery as a Class 3 felony.

20

V. REQUEST FOR RELIEF

21
22
23

Based on die foregoing, Plaintiff seeks die following relief

24

a.

An award of back pay

25

b.

Costs of suit

26

c.

An award of money damages

27

d.

Punitive damages

28

29

Signed on: ^ /^r/X

30

(date)

31
32

7Z
/ Signature of Petitioner

\SFIRST EMPLOYMENT DISCRIMINATION COMPLAINT FOR DAMAGES UNDER TITLE VII, THE
AMERICANS WITH DISABILITIES ACT, THE GENETIC INFORMATION NONDISCRIMINATION ACT,
THE AGE DISCRIMINATION IN EMPLOYMENT ACT, UNLAWFUL DISCHARGE FROM EMPLOYMENT,
RETALIATION. AND THE INTENTIONAL INFLICTION OF EMOTIONAL DISTRESS -11

1
2

2^ f

' f'lAyfcrViisz-

Street Address

3

4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
29
30
31
32

u-;clfg ,lt2$2S,~&0
City, State, Zip

<-4

Printed Name

(Ptf* JY
Signature of Attorney (if any)

t*

■

Case 3:16-cv-00312-SMY-SCW Document 83 Filed 01/12/17 Page 1 of 4 Page ID #443

A/

UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF ILLINOIS

Mr*JOHN WAN BUMPHUS, JR.,

)
)
)
)

Plaintiff,
vs.

)

Case No.: 3:16-cv-00312-SMY-DGW

)
)
)
)
)
)

UNIQUE PERSONNEL CONSULTANTS.
KRISTA FINDLAY, JENNIFER
KATHERINE YATES-WELLER. OF
HENNESSY AND ROACH. P.C..
ANDREW G. TOENNIES. and
SYNERGY COVERAGE SOLUTIONS. LLC.

)
)
)

Defendants.

DEFENDANT UNIQUE PERSONNEL CONSULTANTS’ AMENDED RESPONSE TO
REQUEST #6 OF PLAINTIFF’S FIRST SET OF REQUESTS FOR ADMISSION
Now comes Defendant, UNIQUE PERSONNEL CONSULTANTS ("UniQue" or
"Defendant”), by and through its attorneys, Gordon & Rees, LLP, and for its amended response
to Plaintiff s First Set of Requests for Admission states as follows:
PRELIMINARY STATEMENT
Defendant hereby amends its response to Request for Admission No. 6 pursuant to
Magistrate Judge Stephen C. Williams" Order dated December 29, 2016 (Dkt. No. 78).
Defendant maintains all previous preliminary statements and general objections made in its
initial responses to Plaintiff s First Set of Requests for Admission.
AMENDED RESPONSE TO REQUESTS FOR ADMISSION
6.
Admit that on July 17, 2015, your Glen Carbon, Illinois, Human Resources
manager/office agent Krista Findlay personally received, from the hand of John Bumphus a copy
of his autobiographical 2014 book, "Necessary Candor", wherein John Bumphus pointed out. to
her, with a yellow hi-light marker, the passage on pages 80 and 81 which read, '1 am now, by
way of the Social Security Administration, officially designated and acknowledged as a
psychologically disabled person due to my experiences as an employee with the TIMEC
Corporation. Yes, I am a person who has actually and officially been rendered disabled by

1

Case 3:16-cv-00312-SMY-SCW Document 83 Filed 01/12/17 Page 2 of 4 Page ID #444

*

racism in the American workplace. I am still in treatment for the post-traumatic emotional stress
disorder symptoms purposely inflicted upon me by those within the TIMEC Company. Inc..”
ORIGINAL RESPONSE: Defendant objects to this Request as it violates Fed. R.
Civ. P. 36(a)(2) insofar as it contains more than one
matter and each matter is not separately stated.
Defendant also objects to this Request as it seeks a legal
conclusion and further objects to the characterization of
Plaintiff as “disabled,” on the bases that said
characterization is argumentative and improper, and on
the additional basis that whether a claimed affliction
actually constitutes an impairment under the
Americans with Disabilities Act (“ADA”) is a
determination of law and is thus a legal conclusion and
inappropriate. Subject to, and without waiving, these
objections, Defendant states that John Bumphus
handed Krista Findlay a copy of a book entitled
“Necessary Candor”; Defendant denies the remaining
allegations contained in Request No. 6.
AMENDED RESPONSE: Defendant objects to this Request as it violates Fed. R.
Civ. P. 36(a)(2) insofar as it contains more than one
matter and each matter is not separately stated.
Defendant also objects to this Request as it seeks a legal
conclusion and further objects to the characterization of
Plaintiff as “disabled,” on the bases that said
characterization is argumentative and improper, and on
the additional basis that whether a claimed affliction
actually constitutes an impairment under the
Americans with Disabilities Act (“ADA”) is a
determination of law and is thus a legal conclusion and
inappropriate. Subject to, and without waning, these
objections, Defendant states that John Bumphus
handed Krista Findlay a copy of a book entitled
“Necessary Candor.” and that the following passage in
this book, found on pages 80 and 81 therein, was
highlighted with yellow marker:

“I am now, by way of the Social Security
Administration, officially designated and acknowledged
as a psychologically disabled person due to my
experiences as an employee with the TIMEC
Corporation. Yes, I am a person who has actually and
officially been rendered disabled by racism in the
American workplace. I am still in treatment for the
post-traumatic emotional stress disorder symptoms
purposely inflicted upon me by those within the TIMEC
Company, Inc.”

2

Case 3-16-CV-00312-SMY-SCW Document 83 Filed 01/12/17 Page 3 of 4 Page ID #445

Defendant denies the remaining allegations contained in
Request No. 6.
Respectfully submitted.

Dated: January 12, 2017

GORDON & REES, LLP
By: /s/ J. Haves Ryan________ ;_______
One ofthe Attorneys for Defendant UniQue
Personnel Consultants
J. Hayes Ryan (ARDC #6274197)
Gordon & Rees LLP
One North Franklin, Suite 800
Chicago, Illinois 60606
(312) 565-1400 (Telephone)
(312)565-6511 (Facsimile)

3

Case 3:16-cv-00312-SMY-SCW Document 83 Filed 01/12/17 Page 1 of 4 Page ID #443

A*f

UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF ILLINOIS

1JOHN DAN BUMPHUS, JR.,
Plaintiff,
vs.

)
)
)
)
)
)
)
)
)
)
)

Case No.: 3:I6-cv-00312-SMY-DGW

UNIQUE PERSONNEL CONSULTANTS.
KRISTA FINDLAY. JENNIFER
KATHERINE YATES-WELLER. OF
HENNESSY AND ROACH . P.C..
ANDREW G. TOENNIES, and
SYNERGY COVERAGE SOLUTIONS. LLC. )
Defendants.

)
)

DEFENDANT UNIQUE PERSONNEL CONSULTANTS’ AMENDED RESPONSE TO
REQUEST #6 OF PLAINTIFF’S FIRST SET OF REQUESTS FOR ADMISSION
Now comes Defendant, UNIQUE PERSONNEL CONSULTANTS ("UniQue" or
"Defendant ), by and through its attorneys, Gordon & Rees, LLP, and for its amended response
to Plaintiffs First Set of Requests for Admission states as follows:
PRELIMINARY STATEMENT
Defendant hereby amends its response to Request for Admission No. 6 pursuant to
Magistrate Judge Stephen C. Williams' Order dated December 29, 2016 (Dkt. No. 78).
Defendant maintains all previous preliminary statements and general objections made in its
initial responses to Plaintiffs First Set of Requests for Admission.
AMENDED RESPONSE TO REQUESTS FOR ADMISSION
6.
Admit that on July 17, 2015, your Glen Carbon, Illinois, Human Resources
manager/office agent Krista Findlay personally received, from the hand of John Bumphus a copy
of his autobiographical 2014 book, “Necessary Candor", wherein John Bumphus pointed out, to
her, with a yellow hi-light marker, the passage on pages 80 and 81 which read, “I am now, by
way of the Social Security Administration, officially designated and acknowledged as a
psychologically disabled person due to my experiences as an employee with the TIMEC
Corporation. Yes, I am a person who has actually and officially been rendered disabled by

1

Case 3:16-cv-00312-SMY-SCW Document 83 Filed 01/12/17 Page 2 of 4 Page ID #444
I
racism in the American workplace. I am still in treatment for the post-traumatic emotional stress
disorder symptoms purposely inflicted upon me by those within the TIMEC Company, Inc.,"
ORIGINAL RESPONSE: Defendant objects to this Request as it violates Fed. R.
Civ. P. 36(a)(2) insofar as it contains more than one
matter and each matter is not separately stated.
Defendant also objects to this Request as it seeks a legal
conclusion and further objects to the characterization of
Plaintiff as “disabled,” on the bases that said
characterization is argumentative and improper, and on
the additional basis that whether a claimed affliction
actually constitutes an impairment under the
Americans with Disabilities Act (“ADA”) is a
determination of law and is thus a legal conclusion and
inappropriate. Subject to, and without waiving, these
objections, Defendant states that John Bumphus
handed Krista Findlay a copy of a book entitled
“Necessary Candor”; Defendant denies the remaining
allegations contained in Request No. 6.
AMENDED RESPONSE: Defendant objects to this Request as it violates Fed. R.
Civ. P. 36(a)(2) insofar as it contains more than one
matter and each matter is not separately stated.
Defendant also objects to this Request as it seeks a legal
conclusion and further objects to the characterization of
Plaintiff as “disabled,” on the bases that said
characterization is argumentative and improper, and on
the additional basis that whether a claimed affliction
actually constitutes an impairment under the
Americans with Disabilities Act (“ADA”) is a
determination of law and is thus a legal conclusion and
inappropriate. Subject to, and without waiving, these
objections, Defendant states that John Bumphus
handed Krista Findlay a copy of a book entitled
“Necessary Candor.” and that the following passage in
this book, found on pages 80 and 81 therein, was
highlighted with yellow marker:
“I am now, by way of the Social Security
Administration, officially designated and acknowledged
as a psychologically disabled person due to my
experiences as an employee with the TIMEC
Corporation. Yes, I am a person who has actually and
officially been rendered disabled by racism in the
American workplace. I am still in treatment for the
post-traumatic emotional stress disorder symptoms
purposely inflicted upon me by those within the TIMEC
Company, Inc.”

2

• ./*

Case 3:16-cv-00312-SMY-SCW Document 83 Filed 01/12/17 Page 3 of 4 Page ID #445

Defendant denies the remaining allegations contained in
Request No. 6.
Respectfully submitted.

Dated: January 12, 2017

GORDON & REES, LLP
By: hi J. Haves Ryan_______ ;______ _
One of the Attorneys for Defendant UniQue
Personnel Consultants
J. Hayes Ryan (ARDC # 6274197)
Gordon & Rees LLP
One North Franklin. Suite 800
Chicago. Illinois 60606
(312) 565-1400 (Telephone)
(312)565-6511 (Facsimile)

a

Case 3:16-cv-00312-SMY Document 126 Filed 03/30/18 Page 1 of 12 Page ID #1009
$

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF ILLINOIS

JOHN DAN BUMPHUS, JR.,
Plaintiff,

)
)
)
)

)

vs.

Case No. I6-CV-312-SMY-SCW

)

UNIQUE PERSONNEL CONSULTANTS, )
)
et al.,
Defendants.

)
)

MEMORANDUM AND ORDER
YANDLE, District Judge:
Pending before the Court are the motions to dismiss filed by Defendants Synergy
Coverage Solutions, L.L.C. (Doc. 13), Jennifer Katherine Yates Weller and Hennessy & Roach,
P.C. (Doc. 23), Andrew Toennies (Doc. 26), and UniQue Personnel Consultants, Inc. (Doc. 38).
Plaintiff filed responses to each motion (Docs. 25, 27, 37 and 42). For the reasons discussed
below, the motions filed at Docs. 13,23 and 26 are GRANTED in their entirety; the motion filed
at Doc. 38 is GRANTED in part and DENIED in part.
Plaintiff John Bumphus filed the instant lawsuit pro se against UniQue Personnel
Consultants, Inc., (“Unique”), Krista Findlay, Jennifer Katherine Yates-Weller, Hennessy &
Roach, P.C., (“Hennessy & Roach”), Andrew G. Toennies, and Synergy Coverage Solutions,
L.L.C. (“Synergy”) alleging violations of Title VII of the Civil Rights Act (“Title VII”), the Age
Discrimination in Employment Act (“ADEA”), the Americans with Disabilities Act (“ADA”),
the Genetic Information Nondiscrimination Act (“GINA”), and asserting unlawful discharge

l

Case 3:16-cv-00312-SMY Document 126 Filed 03/30/18 Page 2 of 12 Page ID #1010

from employment, retaliation, and intentional infliction of emotional distress under Illinois state
law (Doc. 2).
The Complaint
Plaintiff John Bumphus sets forth the following facts and allegations in his Complaint.
Bumphus suffers from symptoms of PTSD and “acute medical conditions and physical
disorders,” including “mild obesity, sleep apnea, heart attack, ruptured aorta, hypertension,
spinal stenosis, hernia surgery on the right side and problems with [my] kidney function.” Id. at
f 8. On June 21,2015, he began his employment with Defendant UniQue as a machine operator,
working the third shift. He was promoted to lead product coordinator on July 5, 2015. The third
shift was subsequently discontinued and Bumphus worked as a lead product coordinator on the
second shift from July 13,2015 until July 16,2015.
On July 14, 2015, Bumphus was given an unscheduled overtime assignment, which he
was told was mandatory for second shift workers. The assignment involved work that caused
Bumphus back pain, so he received a reasonable accommodation from Krista Findlay, UniQue’s
human resources manager.

Before speaking with Findlay, Bumphus also spoke to his

supervisors, Donna May and Dana Felton.
On July 17, 2015, Findlay rescinded the work accommodation. In response, Bumphus
provided her with medical documentation and a copy of “Necessary Candor, ” a book that
Bumphus authored and that recounts many of his physical difficulties. Findlay advised Bumphus
that in order to have the accommodation reinstated, he needed to submit a signed statement on a
physician’s stationery. He was terminated around this time.
On July 23, 2015, Bumphus produced a statement from his doctor’s office, requesting
that he be exempted from mandatory overtime that required heavy lifting. Findlay stated that she
2

Case 3:16-cv-00312-SMY Document 126 Filed 03/30/18 Page 3 of 12 Page ID #1011

would “pass it on to corporate” and would let him know of their decision by the end of the day.
Findlay did not follow up with Bumphus that day. Bumphus submitted a written complaint to
UniQue on July 28,2015, and provided copies to Findlay, May and Felton.
On August 6, 2015, Bumphus filed a Charge of Discrimination with the Illinois
Department of Human Rights (“IDHR”) and the U.S. Equal Employment Opportunity
Commission (“EEOC”), asserting disability discrimination in violation of the Americans with
Disabilities Act against UniQue (Doc. 38-1).1 Bumphus received a Notice of Right to Sue
from the EEOC on or about December 23, 2015.
On August 17, 2015, Bumphus filed a Worker’s Compensation action against UniQue.
Defendant Jennifer Katherine Yates-Weller, who is associated with Defendant Hennessy &
Roach, was the attorney for Defendant Synergy, UniQue’s Worker’s Compensation insurer. On
November 23, 2015, Yates-Weller issued subpoenas duces tecum to two medical offices.
Bumphus alleges that she did so fraudulently, in furtherance of a conspiracy, and in violation of
the law governing the issuance of subpoenas.
Bumphus invokes the Court’s federal question jurisdiction under 28 U.S.C. Section 1331,
and asserts the defendants are liable for violations of Title VII of the Civil Rights Act of 1967,
the Age Discrimination in Employment Act, the American with Disabilities Act, the Genetic
Information Nondiscrimination Act, and for unlawfully discharging him and subjecting him to
the intentional infliction of emotional distress under Illinois law.

1 Pursuant to Federal Rule of Evidence 201, the Court takes judicial notice of Plaintiffs EEOC/IDHR Charge of
Discrimination (Nos. 161216-010 (IDHR) 560-2015-01744 (EEOC)).
3

Case 3:16-cv-00312-SMY Document 126 Filed 03/30/18 Page 4 of 12 Page ID #1012

Discussion
Defendants Synergy, Yates-Weller, Hennessey & Roach, and Toennies
A motion brought pursuant to Federal Rule of Civil Procedure 12(b)(1) challenges a
district court’s subject-matter jurisdiction over the action in question.

Fed. R. Civ. P.

12(b)(1). It is “fundamental that if a court is without jurisdiction of the subject matter it is
without power to adjudicate and the case [must] be properly disposed of only by dismissal of
the complaint for lack of jurisdiction.” Stewart v. United States, 199 F.2d 517, 519 (7th Cir.
1952).
Moreover, a court’s lack of subject-matter jurisdiction is a defense that cannot be waived.
United States v. Cotton, 535 U.S. 625, 630 (2002). If subject-matter jurisdiction is challenged,
the party seeking to invoke jurisdiction bears the burden of supporting his or her jurisdictional
allegations by “competent proof.” Grafon Corp. v. Hausermann, 602 F.2d 781,783 (7th Cir.
1979). “'Competent proof ...has been interpreted to mean a preponderance of the evidence or
proof to a reasonable probability that jurisdiction exists.”

NLFC, Inc. v. Devcom Mid-

America, Inc., 45 F.3d 231, 237 (7th Cir. 1995). Defendants Synergy, Yates-Weller, Hennessey
& Roach, and Toennies each assert that this Court lacks subject matter jurisdiction over
Plaintiffs claims and that dismissal is required under F.R.C.P. 12(b)(1).
Synergy argues that the numerous federal employment statutes Bumphus cites in his
Complaint do not apply to it as the only allegation Bumphus makes against it is that its attorney
“illegally” issued subpoenas while defending a Workers Comp claim. Synergy’s point is well
taken.
While Bumphus’ asserts the defendants collectively violated Title VII of the Civil Rights
Act of 1967, the Age Discrimination in Employment Act, the American with Disabilities Act,

Case 3:16-cv-00312-SMY Document 126 Filed 03/30/18 Page 5 of 12 Page ID #1013

and the Genetic Information Nondiscrimination Act, he does so only in conclusory fashion. His
Complaint is devoid of any allegations connecting Synergy’s conduct in issuing subpoenas to
these statutes. As such, die Complaint fails to invoke this Court’s subject matter jurisdiction as
to Plaintiffs claims against Synergy, and Synergy’s Motion to Dismiss (Doc. 13) must be
GRANTED pursuant to F.R.C.P. 12(b)(1).
Likewise, this Court lacks subject matter jurisdiction over the claims asserted against
Defendants Yates-Weller, Hennessy & Roach. In his Complaint, Plaintiff alleges:
“ On November 23, 2015, the plaintiff was victimized, and illegally bullied as an
unrepresented, disabled, injured worker with a medical history of Post-Trawnatic
Stress Disorder, in what was a jointly undertaken criminal conspiracy activity,
pursuant to Section 1 B1.3(a)(l)(b)...of the Judiciary and Judicial Procedure
Standards of the United States Sentencing Commission (28 U.S.C. Section
994(a)), which was orchestrated, and perpetrated, by respondent Attorney Jennifer
Katherine Yates-Weller #2795, who is of, and is a partner with Defendant
Hennessy & Roach, P.C., of St. Louis, Missouri, on behalf of respondent UniQue
Personnel Consultants, and also on behalf of their Workers' Compensation
insurer, Synergy Coverage Solutions L.L.C., as she knowingly created, presented,
fraudulently signed and personally affirmed for Proof of Service as an attorney,
two (2) forged Subpoenas Duces Tecum, under the auspices and in clear violation
of Chapter II§7030.50-Subpoena Practice, 50 ILLINOIS ADMINISTRATIVE
CODE, Illinois Workers' Compensation Rules Governing Practice by U.S. Mail,
to myself, to Dr. Yablonsky at Associated Physicians Group in Edwardsville,
Illinois, and to Dr. Baig at Wellspring Resources in Alton, Illinois which is now
known as Centerstone, in an effort to illicitly gain unauthorized access to my
personal medical records, so as to attempt to avoid and delay the payment of my
Illinois Workers' Compensation benefits, and under Section §17-3. Forgery, of the
Illinois Compiled Statutes, which recognizes forgery as a Class 3 felony.” (Doc.
2, page 11, paragraph 13).
These allegations fail to implicate the protections of Title VII of the Civil Rights Act of 1967, the
Age Discrimination in Employment Act, the American with Disabilities Act, and the Genetic
Information Nondiscrimination Act, and therefore fail to invoke subject matter jurisdiction.
Accordingly, the Motion to Dismiss filed by Defendants Yates-Waller and Hennessey & Roach
(Doc. 23) is also GRANTED pursuant to Rule 12(b)(1).
5

Case 3:16-cv-00312-SMY Document 126 Filed 03/30/18 Page 6 of 12 Page ID #1014

As to Defendant Toennies, an attorney who defended UniQue on Plaintiffs EEOC
charge, Plaintiff alleges only that he

falsely and deliberately declared that the plaintiff had

‘indicated on his application that he had no physical restrictions.”’ (Doc. 2, page 11, paragraph
12). There are no allegations that Toennies or his law firm employed Plaintiff, or subjected
Plaintiff to an adverse employment action based on his race, age, disability, or genetic
information.
Again, Plaintiff merely asserts that the defendants collectively violated the federal
statutes in question, which is insufficient to invoke federal question jurisdiction. Because this
Court lacks subject matter jurisdiction as to Plaintiffs asserted claims against Defendant
Toennies, his Motion to Dismiss (Doc. 26) is GRANTED pursuant to Rule 12(b)(1).
Defendants UniQue Personnel Consultants, Inc. and Krista Findlay
f

When deciding a motion to dismiss under Rule 12(b)(6) of the Federal Rules of Civil
Procedure, the Court accepts as true all facts alleged in the Complaint and construes all
reasonable inferences in favor of the plaintiff. Savory v. Lyons, 469 F.3d 667, 670 (7th Cir.
2006). To state a claim upon which relief may be granted, a Complaint must contain a “short
and plain statement of the claim showing that the pleader is entitled to relief.” Fed. R. Civ. P.
8(a)(2). “Detailed factual allegations” are not required, but the plaintiff must allege facts that
when “accepted as true ... state a claim to relief that is plausible on its face.” Ashcroft v. Iqbal,
556 U.S. 662, 678, 129 S.Ct. 1937, 173 L.Ed.2d 868 (2009) (quoting Bell Atlantic Corp. v.
Twombly, 550 U.S. 544, 555,127 S.Ct. 1955,167 L.Ed.2d 929 (2007).
“A claim has facial plausibility when the plaintiff pleads factual content that allows the
court to draw the reasonable inference that the defendant is liable for the misconduct alleged.”
Iqbal, 556 U.S. at 678, 129 S.Ct. 1937.

The pleading standard for a pro se plaintiff is
6

Case 3:16-cv-00312-SMY Document 126 Filed 03/30/18 Page 7 of 12 Page ID #1015

“considerably relaxed.” Luevano v. Wal-Mart Stores, 722 F.3d 1014, 1027 (7th Cir. 2013)
(citations omitted).
In support of their motion, Defendants UniQue and Findlay argue:
(1) By filing an EEOC charge that only claimed discrimination based on disability,
Bumphus has forfeited his right to pursue relief under Title VII, ADEA, and GINA;
(2) Bumphus has failed to set forth the elements of an ADA claim;
(3) Because the federal discrimination statutes do not provide for individual liability,
Defendant Findlay must be dismissed;
(4) The dismissal of the federal claims extinguishes any basis for jurisdiction over the
state claims; or, alternatively,
(5) The state law causes of action should also be dismissed for failing to state claims;
(6) Because Bumphus, who has been found indigent, fails to state a claim upon which
relief may be granted and his suit is frivolous, dismissal is proper pursuant to 28
U.S.C. § 1915(e)(2)(B);
(7) Due to a previous substantial judgment in his favor, Bumphus is not indigent.
In response, Bumphus submitted an accounting of his health history and his interactions with
Defendants. Though his response is voluminous, it is minimally responsive to Defendants’ legal
arguments.
As an initial matter, the Court dismisses the claims against Findlay for violations of Title
VII, the ADA, the ADEA, and GINA. It is well-settled that Title VII, the ADA, and ADEA do
not impose liability upon individual employees, but rather employers. Williams v. Banning, 72
F.3d 552 (7th Cir. 1995)(discussing principle in regard to Title VII and ADA claims); Horwitz v.
Bd. ofEduc. ofAvoca Sch. Dist. No. 37, 260 F.3d 602, 610 (7th Cir. 2001)(“We have suggested
that there is no individual liability under the ADEA. See Matthews v. Rollins HudigHall Co., 72
F.3d 50, 52 n. 2 (7th Cir.1995); Thelen v. Marc's Big Boy Corp., 64 F.3d 264, 267 n. 2 (7th
Cir. 1995).”).

Therefore, Findlay cannot be held individually liable under these statutes.

Relatedly, because GINA incorporates Title VII’s definition of “employer” (42 U.S.C. §
7

Case 3:16-cv-00312-SMY Document 126 Filed 03/30/18 Page 8 of 12 Page ID #1016

' 2000ff(2)(B)(i)), the Court finds that it also prohibits the imposition of individual liability.
Accordingly, Plaintiffs claims against Defendant Krista Findlay are DISMISSED with
prejudice for failure to state a claim on which relief may be granted.
Failure to Exhaust
Ordinarily, a plaintiff may only pursue a federal discrimination claim that was asserted in
an EEOC charge. However, a plaintiff may bring a claim not included in his EEOC charge if the
claim is “like or reasonably related” to the EEOC charge and can reasonably be expected to grow
out of an EEOC investigation of the charge. Sitar v. Indiana Dept, of Transp., 344 F.3d 720, 726
(7th Cir.2003), citing Jenkins, 538 F.2d 164, 167 (7th Cir.1976) (en banc). “The EEOC charge
and the complaint must, at a minimum, describe the same conduct and implicate the same
individuals. " Kerstingv. Wal-Mart Stores, 250 F.3d 1109,1118 (7th Cir. 2001)(intemal citation
omitted) (emphasis in original).
Bumphus’s EEOC charge (Doc. 38-1) alleges only a violation of his rights under the
ADA. It does not mention race, age, or genetic information, and concludes “I believe that I have
been discriminated against based on my disability in that I was denied a reasonable
accommodation and then terminated in violation of my civil rights under The Americans with
Disabilities Act as amended (ADA).” Because the charge fails to describe conduct that may
plausibly give rise to a complaint for discrimination based on race, age, or genetic information,
Plaintiff failed to exhaust administrative remedies with respect to his claims asserted under Title
VII, the ADEA, or GINA. Accordingly, said claims are DISMISSED with prejudice pursuant
to F.R.C.P. 12(b)(6).

8

Case 3:16-cv-00312-SMY Document 126 Filed 03/30/18 Page 9 of 12 Page ID #1017

ADA Claim
In order to plead a viable disability discrimination claim, Plaintiff must allege that he is
disabled within the meaning of the ADA, that he is qualified to perform the essential functions of
the job, either with or without a reasonable accommodation, and that he suffered from an adverse
employment action because of his disability. Hoppe v. Lewis University, 692 F.3d 833, 839 (7th
Cir. 2012), citing Nese v. Julian Nordic Const. Co., 405 F.3d 638, 641 (7th Cir.2005). A
disability is defined as a physical or mental impairment that substantially limits one or more of
the major life activities of [an] individual; (b) a record of such an impairment; or (c) being
regarded as having such an impairment.” E.E.O.C. v. AutoZone, Inc., 630 F.3d 635, 639 (7th
Cir. 2010) (emphasis in original).
UniQue asserts Bumphus has not established that he has a disability or that he was
terminated because of it. Specifically, Defendant argues that Bumphus has failed to sufficiently
allege that any of his claimed disabilities "substantially limit[] a major life activity,” Cassimy v.
Bd. of Educ. of Roclford Public Schs., Dist. No. 205, 461 F.3d 932 (7th Cir. 2006). It contends
that the Complaint actually alleges that Plaintiff was terminated because of his failure to
document his disability, not due to the disability itself.
Bumphus lists a number of maladies; among them PTSD, serious back issues, and renal
problems. According to the Complaint, he received an accommodation for a work assignment
that...
“consisted of a forced repeat performance of a Production Wiring Rework Table
operator task, of the loading of a large, and somewhat awkward, car component
into the designated crates, due to the fact that I have a rod and two pins in my
lower back, from a 2006 spinal fusion surgery, and die bending, straining, and
lifting was causing discomfort to my back at the point which I perceived to be the
(L4-5) point of that surgery .”
(Doc. 2 at 3-4).
9

Case 3:16-cv-00312-SMY Document 126 Filed 03/30/18 Page 10 of 12 Page ID #1018

Bumphus alleges that the accommodation was “abruptly rescinded,” and that he was
terminated and told that his complaint would only be considered if he provided substantiation of
his back problems from a physician (Doc. 2 at 4). Bumphus also alleges that he complained to
several superiors about the effect the overtime had on his back issues, and that he provided a
doctor’s note, but was not reinstated.

Under the federal notice pleading standards, these

allegations are sufficient to state a viable claim for ADA discrimination. Therefore, Defendants’
motion to dismiss is DENIED as to this claim.
State Law Claims
In Illinois, a claim for intentional infliction of emotional distress requires that (1) the
conduct to which the plaintiff was subjected was truly extreme and outrageous, (2) the defendant
either intended to cause severe emotional distress or acted knowing there was a high probability
such distress would result, and (3) the conduct was severe enough to cause emotional distress.
Lewis v. School District #70, 523 F.3d 730, 746 (7th Cir. 2008). The bar for such a claim is a
high one. “‘The law intervenes only where the distress inflicted is so severe that no reasonable
man could be expected to endure it’...[T]he tort does not extend to ‘mere insults, indignities,
threats, annoyances, petty oppressions, or other trivialities.’” McGrath v. Fahey, 126 Ill. 2d 78,
86, 533 N.E.2d 806, 809 (1988) (quoting Restatement (Second) of Torts § 46, comments j, at 77—
78 & d, at 73 (1965)). Rather, the conduct “must be such that the recitation of facts to an
average member of the community would arouse his resentment against the actor, and lead him
to exclaim ‘Outrageous!’” Van Stan v. Fancy Colours, Co., 125 F.3d 563, 567 (7th Cir. 1997).
Here, while Defendant and its agents took actions with which Bumphus disagreed, the complaint
allegations do not meet the high standard required to suggest outrageous conduct. Therefore, this
claim is DISMISSED.
10

Case 3:16-cv-00312-SMY Document 126 Filed 03/30/18 Page 11 of 12 Page ID #1019

The Court also construes the allegations of the Complaint as an attempt to assert a state
law cause of action for retaliatory discharge.2 In order to state a cause of action for retaliatory
discharge, the plaintiff must allege that (1) the plaintiff was terminated by the employer, (2)
the discharge was in retaliation for action of the employee, and (3) the discharge violates a clear
mandate of public policy. Turner, 233 HI. 2d at 500; Michael v. Precision Alliance Group, LLC,
2014 IL 117376, f 31. Illinois courts recognized the tort of retaliatory discharge in only two
instances: (1) when an employer discharges an employee for making, or planning to make, a
claim under the Worker’s Compensation Ac; and (2) when the discharge is in retaliation for
“whistle-blowing” or reporting illegal or improper conduct against the employer. Michael,
2014 IL 117376, f 30.
While Bumphus alleges that he filed a Workers’ Compensation Act claim, he did so
after he was terminated from his employment. As such, Plaintiff cannot satisfy the second
element of a valid cause of action for retaliatory discharge since Defendants could not have
terminated him in retaliation for an action he had yet to take. Under the circumstances, there are
no set of facts that would allow permit Bumphus to state a colorable claim for retaliatory
discharge. Accordingly, this claim will be DISMISSED with prejudice.3
CONCLUSION
For the forgoing reasons, the Court GRANTS the Motions to Dismiss filed by
Defendants Synergy Coverage Solutions, L.L.C. (Doc. 13), Jennifer Katherine Yates Weller and

2 He lists both “retaliation” and “wrongful discharge” as torts for which he is suing, but Illinois’ exception to at-will
employment, retaliatory discharge, is often referred to as “wrongful discharge.” See Golke v. Lee Lumber & Bldg.
Materials Corp., 671 F. Supp. 568, 570 n. 1 (N.D. Ill. 1987)(“Throughout this opinion, the terms “wrongful
discharge” and “retaliatory discharge” will be used interchangeably.”)
3 Because Plaintiffs ADA claim survives dismissal, the Court will not address Defendant’s motion to dismiss based
on Plaintiffs in forma pauperis status.
11

Case 3:16-cv-00312-SMY Document 126 Filed 03/30/18 Page 12 of 12 Page ID #1020

Hennessy & Roach, P.C. (Doc. 23), and Andrew Toennies (Doc. 26) for lack of subject matter
jurisdiction. Defendant UniQue Personnel Consultants, Inc.’s Motion to Dismiss (Doc. 38) is
GRANTED with prejudice as to Defendant Krista Findlay for failure to state a claim:
GRANTED for lack of subject matter jurisdiction with respect to Plaintiff’s claims under Title
VII of the Civil Rights Act of 1967, the Age Discrimination in Employment Act, and the Genetic
Information Nondiscrimination Act; GRANTED with prejudice as to Plaintiff’s state law
claims; and DENIED with respect to Plaintiff’s claim under the American with Disabilities Act.
IT IS SO ORDERED.
DATED: March 30,2018
s/ Staci M. Yandle
STACIM. YANDLE
United States District Judge

12

Untteii States Court of Uppeate
Jfor tlje ^ebentlj Circuit
Chicago, Slltnois! 60604
April 27,2018
By the Court:
JOHN DAN BUMPHUS, JR.,
Plaintiff-Appellant,
No. 18-1902

v.

] Appeal from the United
] States District Court for
] the Southern District of
] Illinois.

3
UNIQUE PERSONNEL CONSULTANTS, ] No. 3:16-cv-00312
3
etal.,
] Stad M. Yandle,
Defendants-Appellees.
] Judge.
ORDER
A preliminary review of the short record indicates that the order appealed from
may not be a final appealable judgment within the meaning of 28 U.S.C. § 1291.
Generally, an appeal may not be taken in a dvil case until a final judgment
disposing of all daims against all parties is entered on the district court's dvil docket
pursuant to Fed. R. Civ. P. 58. See Alonzi v. Budget Construction Co., 55 F.3d 331,333 (7th
Cir. 1995); Cleaver v. Elias, 852 F.2d 266 (7th Cir. 1988).
The district court has not entered a Rule 58 judgment in the present case, and for
good reason. Plaintiffs daim for ADA discrimination remains pending before the
district court. As such, a final appealable judgment does not exist. Accordingly,
IT IS ORDERED that appellant John Dan Bumphus, Jr., shall file, on or before
May 11,2018, a brief memorandum stating why this appeal should not be dismissed for
lack of jurisdiction. A motion for voluntary dismissal pursuant to Fed. R. App. P. 42(b)
will satisfy this requirement. Briefing shall be suspended pending further court order.
NOTE:

Caption document "JURISDICTIONAL MEMORANDUM". The filing of a Circuit
Rule 3(c) Docketing Statement does not satisfy your obligation under this order.

Case 3:16-cv-00312-SMY Document 137 Filed 08/30/18 Page lot 7 Page ID #1088

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF ILLINOIS

JOHN DAN BUMPHUS, JR.,
Plaintiff,

)
)
)
)

)

vs.

Case No. 16-CV-312-SMY-DGW

)

UNIQUE PERSONNEL CONSULTANTS, )
)
KRISTA FINDLAY,
)
JENNIFER KATHERINE YATES)
WELLER, HENNESSY AND ROACH
)
P.C., ANDREW G. TOENNIES, and
)
SYNERGY COVERAGE SOLUTIONS,
)
LLC,
Defendants.

)
)

MEMORANDUM AND ORDER
YANDLE, District Judge:
Plaintiff John Dan Bumphus Jr. filed this lawsuit pro se against numerous defendants
alleging violations of Title VII of the Civil Rights Act (“Title VII”), the Age Discrimination in
Employment Act (“ADEA”), the Americans with Disabilities Act (“ADA”), the Genetic
Information Nondiscrimination Act (“GINA”), and asserting unlawful discharge from
employment, retaliation, and intentional infliction of emotional distress under Illinois state law.1
Now before the Court is Defendant UniQue Personnel Consultant’s Motion for Summary
Judgment (Doc. 97). Bumphus filed a response (Doc. 110). For the following reasons, the
motion is GRANTED.

1 On March 30, 2018, this Court dismissed Bumphus’s claims under Title VII, the ADEA, the GINA and
his state law claims. The Court also dismissed his claims against Defendants Synergy Coverage
Solutions, L.L.C., Jennifer Katherine Yates Weller, Hennessy & Roach, P.C., Andrew Toennies, and
Krista Findlay {see Doc. 126).
Page 1 of7

Case 3:16-cv-00312-SMY Document 137 Filed 08/30/18 Page 2 of 7 Page ID #1089

Background
Plaintiff John Dan Bumphus, Jr. was diagnosed with post-traumatic stress disorder
("PTSD") in 2001 (Doc. 97-1, p. 116). His treatment consists of counseling with a therapist once
every two or three months. Id. In addition to PTSD, Bumphus suffers from spinal stenosis and
underwent a spinal fusion surgery in 2006. Id. During his deposition, Bumphus testified that no
medical professional has precluded him from seeking work due to health reasons or concluded
that he is incapable of working. Id. atp. 78.
In June 2015, Bumphus applied for a position with UniQue Personnel Consultants
("UniQue") (Doc. 97-1, p. 21; pp. 24-25; see also Doc. 97-2). UniQue is a placement agency
that offered permanent as well as short or long-term temporary assignments to its applicants
(Doc. 97-2). Unique would contact the applicant with more information regarding a position
should a match be made. Id.

An applicant was not under any obligation to accept any

assignment or position recommended by UniQue. Id. UniQue applicants were required to call
UniQue offices once per week when looking for work (Doc. 97-1, pp. 23-24; Doc. 97-2).
On the application, Bumphus indicated that he could perform work during any shift and
was able to lift up to 40 pounds (Doc. 97-1, p. 22; Doc. 97-2). Bumphus did not indicate that he
had any physical or mental limitations (Doc. 97-1, p. 24; Doc. 97-2). On June 17, 2015,
Bumphus accepted a job at the Yazaki Warehouse (“Yazaki”) that paid $10.50 per hour (Doc.
97-1, pp. 27-29). He again did not mention any physical or mental limitations at the time. Id.
Bumphus began working the third shift at Yazaki on the evening of June 21, 2015 (Doc.
97-1, pp. 29-30). His work involved various tasks, including the removal of automotive parts
from crates and repacking them. Id. at pp. 30-32. Bumphus testified that, at some point during
the shift, he felt pain in his back when manipulating what he described as a large harness. Id. at

Page 2 of7

Case 3:16-cv-00312-SMY Document 137 Filed 08/30/18 Page 3 of 7 Page ID #1090

pp. 30-31, 37-38. Bumphus was able to perform all other aspects of his job, including moving
smaller objects and completing paperwork. Id. Bumphus informed his shift supervisor, Dana
Felton, about his back pain and difficulty maneuvering the harnesses. Id. at pp. 30-34. He was
able to complete his work assignments. Id.
On July 13, 2015, Bumphus moved to the second shift, as the third shift had been
discontinued (Doc. 97-1, pp. 39-40). He testified that, at the beginning of the shift, he was
informed by supervisor Donna May that there was mandatory overtime. Id. at p. 42. An hour
later, Bumphus approached May and told her that he had to leave due to pain in his back. Id. at
pp. 44-46. According to Bumphus, May responded that she would have to “write him up,” to
which Bumphus replied, “that sounds fair.” Id.
The following morning, Bumphus spoke with UniQue's Krista Findlay about his back
issues and the mandatory overtime (Doc. 97-1, pp. 47-50). According to Bumphus, Findlay
assured him that “the conversation” about his back “would never come up again,” and that it was
“totally unacceptable” for him to work through his pain to complete a task. Id. at pp. 49-50.
Bumphus continued to work on the second shift at Yazaki from July 14, 2015 until July
16, 2015 (Doc. 97-1, p. 50). During this time, Bumphus was able to complete his assignments,
including “running” two tables one night, and three tables another night, which involved walking
and moving parts around. Id. at p. 51. On July 16,2015, Bumphus spent an hour “pulling boxes
out” and “recounting pieces” while in search of a missing piece of equipment. Id. at pp. 51-52.
As he was preparing to leave for the day, May questioned him about leaving when there was still
work to complete. Id. at p. 52. In response, Bumphus asked if she had spoken with Findlay, and
May indicated that she did not know what he was referring to. Id. at p. 52. Bumphus then
reiterated that he was leaving and left the facility. Id. at pp. 52-53.

Page 3 of 7

Case 3:16-cv-00312-SMY Document 137 Filed 08/30/18 Page 4 of 7 Page ID #1091

On July 17, 2015, Bumphus spoke with Findlay in person (Doc. 97-1, pp. 55-58). During
this conversation, he volunteered to provide proof of his back condition. Id. at pp. 57-58.
Bumphus went to his physician’s office and obtained what he describes as “four or five pages”
containing CT scan results. Id. at pp. 62-64. He gave Findlay the documents along with a copy
of his book, “Necessary Candor.” Id. at pp. 62-64. When Bumphus gave Findlay the records
and book, Findlay told Bumphus that he needed a note from a physician explaining his
limitations. Id. at p. 65.
On July 23, 2015, Bumphus delivered a physician's note to Findlay (Doc. 97-1, pp. 6669, Doc. 97-3). The note stated: "Please exempt patient from mandatory overtime that involves
heavy lifting" (Doc. 97-3). Findlay offered Bumphus another position that paid $8.25 per hour
and he declined (Doc. 97-1, pp. 69-70).
Bumphus did not return to Yazaki after July 16, 2015 (Doc. 97-1, p. 67). Bumphus
testified that no one at UniQue ever told him that he could not inquire about available positions
and no one ever told him that he was terminated. Id. at pp. 70-71, p. 78.
Discussion
Summary judgment is proper only if the moving party can demonstrate that there is no
genuine issue as to any material fact and the movant is entitled to judgment as a matter of law.
Fed. R. Civ. P. 56(a); Celotex Corp. v. Catrett, 477 U.S. 317, 322 (1986). The moving party
bears the burden of establishing that no material facts are in genuine dispute; any doubt as to the
existence of a genuine issue must be resolved against the moving party. Lawrence v. Kenosha
County, 391 F.3d 837,841 (7th Cir. 2004). A moving party is entitled to judgment as a matter of
law where the non-moving party “has failed to make a sufficient showing on an essential element
of her case with respect to which she has the burden of proof.” Celotex, 477 U.S. at 323. If the

Page 4 of 7

Case 3:16-cv-00312-SMY Document 137 Filed 08/30/18 Page 5 of 7 Page ID #1092

evidence is merely colorable, or is not sufficiently probative, summary judgment may be granted.
Anderson v. Liberty Lobby, Inc., All U.S. 242, 249—50 (1986).
The American with Disability Act ("ADA") prohibits discrimination against a disabled
individual “because of the disability of such individual in regard to job application procedures,
the hiring, advancement, or discharge of employees, employee compensation, job training, and
other terms, conditions, and privileges of employment.” 42 U.S.C. § 12112(a). As a threshold
matter, an individual seeking to assert claims under the ADA must show that he or she is
disabled, and that he or she is a “qualified person” for the job position in question. See Hoffman
v. Caterpillar, Inc., 256 F.3d 568, 571-72 (7th Cir. 2001). Disability under the ADA is defined
as “(A) a physical or mental impairment that substantially limits one or more of the major life
activities of such individual; (B) a record of such an impairment; or (C) being regarded as having
such an impairment.” 42 U.S.C. § 12102(2). A qualified person is one who “satisfies the pre­
requisites for the position” and “can perform the essential functions of the position held or
desired, with or without reasonable accommodation.” Bombard v. Fort Wayne Newspapers, Inc.,
92 F.3d 560,563 (7th Cir. 1996).
Bumphus does not contend that he had a record of an impairment or was regarded as
having an impairment. Thus, the question is whether he actually had a physical or mental
impairment that substantially limited a major life activity under the ADA's first definition of
disability. Major life activities include, but are not limited to, “caring for oneself, performing
manual tasks, walking, seeing, hearing, speaking, breathing, learning, and working.” Steffen v.
Donahoe, 680 F.3d 738, 745-46 (7th Cir. 2012).

When determining whether a disability

“substantially limits” a person from performing such an activity, courts consider “the nature and
severity of the impairment; the duration or expected duration of the impairment; and the

Page 5 of7

*

Case 3:16-cv-00312-SMY Document 137 Filed 08/30/18 Page 6 of 7 Page ID #1093

permanent or long term impact, or the expected permanent or long term impact of or resulting
from the impairment...generally, short-term, temporary restrictions, with little or no long-term
impact, are not substantially limiting and do not render a person disabled for purposes of the
ADA.” Serednyj v. Beverly Healthcare, LLC, 656 F.3d 540, 554 (7th Cir. 2011) (citations
omitted).
Bumphus maintains that his spinal stenosis and PTSD rendered him disabled under the
ADA.

However, there is insufficient evidence in the record establishing that Bumphus is

disabled within the meaning of the ADA. Bumphus testified that his back pain, not his PTSD,
was the only problem he had while working for UniQue. He further testified that he was able to

perform nearly all aspects of his warehousing job and that his back pain did not hinder his ability
to be productive. Bumphus states that he was able to run multiple tables and he believed that he
was doing a good job in his position. Although Bumphus procured a physician's note requesting
that he be exempt from mandatory overtime "that involves heavy lifting," lifting limitations do
not qualify as a disability under the ADA.
In Contreras v. Suncast Corp., 237 F.3d 756, 763 (7th Cir. 2001), the Seventh Circuit
addressed the issue of lifting limitations in the context of the ADA. The plaintiff, an injured
forklift operator, argued that he was substantially limited in the major life activity of working
because he was unable to lift in excess of 45 pounds for a long period of time, unable to engage
in strenuous work, and unable to drive a forklift for more than four hours a day. Id. The Seventh
Circuit disagreed, stating that even after taking the plaintiffs claims as fact, it failed to see “how
such inabilities constitute a significant restriction on one's capacity to work, as the term is
understood within the ADA.” Id. at 763. The court noted that other Circuits have also found

Page 6 of 7

Case 3:16-cv-00312-SMY Document 137 Filed 08/30/18 Page 7 of 7 Page ID #1094

that weight limitations do not qualify as a substantial limitation on working and, thus, a disability
under the ADA.
Consistent with Seventh Circuit precedent, even viewing the evidence in the light most
favorable to Bumphus, this Court concludes that there is no evidence that his spinal stenosis
substantially limited any major life activities. Because Bumphus has presented no evidence that
even suggests he is precluded from a broad class of jobs, he has failed to establish that he is
disabled within the meaning of the ADA.
Conclusion
For the foregoing reasons, Defendant’s Motion for Summary Judgment is GRANTED.
The Clerk of Court is DIRECTED to enter judgment accordingly. All pending motions are
TERMINATED as MOOT.
IT IS SO ORDERED.
DATED: August 30,2018
s/ Staci M. Yandle
STACIM. YANDLE
United States District Judge

Page 7 of 7

a?
-r •

Case 3:16-cv-00312-SMY-SCW Document 138 Filed 08/30/18 Page 1 of 2 Page ID #1095

3)7-

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF ILLINOIS

JOHN DAN BUMPHUS, JR.,
Plaintiff,

)
)
)
)

)

vs.

Case No. 16-CV-312-SMY-DGW

)

UNIQUE PERSONNEL CONSULTANTS, )
)
KRISTA FINDLAY,
)
JENNIFER KATHERINE YATES)
WELLER, HENNESSY AND ROACH
)
P.C., ANDREW G. TOENNIES, and
)
SYNERGY COVERAGE SOLUTIONS,
)
LLC,
Defendants.

)
)

JUDGMENT IN A CIVIL ACTION
DECISION BY THE COURT.
This matter having come before the Court, and the Court having rendered a decision,
IT IS HEREBY ORDERED AND ADJUDGED that by Order dated March 30, 2018
(Doc. 126), Plaintiff John Dan Bumphus's claims against Defendants Synergy Coverage
Solutions, L.L.C., Jennifer Katherine Yates Weller, Hennessy & Roach, P.C., Andrew Toennies,
and Krista Findlay are DISMISSED with prejudice.
IT IS FURTHER ORDERED AND ADJUDGED that by Order dated August 30, 2018
(Doc. 137), Plaintiffs claims against Defendant UniQue Personnel Consultant are DISMISSED
with prejudice. Plaintiff shall recover nothing and this action is DISMISSED in its entirety.
Accordingly, the Clerk of Court is DIRECTED to close this case.
DATED: August 30,2018

JUSTINE FLANAGAN, Acting Clerk of Court
Bv: s/ Stacie Hurst, Deputy Clerk
Page 1 of 2

Case 3:16-cv-00312-SMY-SCW Document 138 Filed 08/30/18 Page 2 of 2 Page ID #1096

Approved:
*

s/ Staci M. Yandle
STACI M. YANDLE
DISTRICT JUDGE

Page 2 of 2

DEC 0 8 2018

Dan Bumphus, Jr., pro se
m 221 South Myrtle
%Edjfl*dsville, Illinois 62025-1510
^yPrjwnphus^a.vahoo.com

V

CLERK, U.S. DISTRICT COURT
SOUTHERN DISTRICT OF ILLINOIS
EAST ST. LOUIS OFFICE

UNITED STATES FEDERAL DISTRICT COURT
FOR THE
SOUTHERN DISTRICT OF ILLINOIS

JOHN DAN BUMPHUS, JR, PRO SE,
Plaintiff,
vs.

Ilfilsll"

Case No.: 16-312-SMY-SCW
DISABLED PRO SE PLAINTIFF’S RULE 60
MOTION FOR RELIEF FROM FINAL
JUDGMENT AND ORDER

pS ANDREW TOENNIES, AND SYNERGY
COVERAGE SOLUTIONS L.L.C.,
Defendants

__________ _

DISABLED pro se PLAINTIFF’S RULE 60 MOTION
FOR RELIEF FROM FINAL JUDGMENT AND ORDER

To the Court:
In 1803, Judge William Cranch, a nephew of former distinguished American First Lady
Abigail Adams wrote, in his role as reporter of decisions of the Supreme Court of the Umted
States, that Marbury v. Madison, 5 U.S. (1 Cranch) 137 (1803), was a U.S. Supreme Court case
which established the principle of judicial review in the United States, meaning that American
courts have the power to strike down laws, statutes, and some government actions that
contravene the U.S. Constitution.
In that case, a wit of mandamus, a type of court order which commands a government
official to perform an act they are legally required to perform .was the proper remedy for
l

William Marbury’s situation pertaining to his rights to a President John Adams-nominated
March 3,1801 appointment commission scheduled to be delivered by Secretary of State James
Madison. Chief Justice John Marshall, in the U.S. Supreme Court’s first ever declaration of the
power ofjudicial review, ruled in Marbury’s favor that American federal courts have the power
to refuse to give any effect to congressional legislation that is inconsistent with the Supreme
Court’s interpretation of the U.S. Constitution.
Justice Marshall argued that the authorization in Article III of the Constitution, that the
Court can decide cases arising “under this Constitution”, implied that the Court had the power to
strike down laws conflicting with the Constitution. This, Marshall wrote, meant that the
Founders were willing to have the American judiciary use and interpret the Constitution when
judging cases. Lastly, Marshall argued that judicial review is implied in Article IV of the
Constitution, since it declares the supreme law of the United States to be not the Constitution and
the laws of the United States, but rather the Constitution and laws made “in Pursuance thereof’.

Your Honor, Documents 137 and 138 in this present case, concerning the DISMISSALS
of the PTSD-disabled pro se Plaintiff John Dan Bumphus, Jr.’s, claims against Defendant
UniQue Personnel Consultants, Inc., Defendant SYNERGY Coverage Solutions, L.L.C.,
Defendant Jennifer Katherine Yates-Weller, Defendant Hennessy & Roach, P.C., and Defendant
Andrew Toennies, which were filed by this Court on August 30,2018, contain mistakes of law
concerning the application of the United States Constitutional law, Title 42 §12101, of the
Americans with Disabilities Act (ADA) of 1990 as Amended, and have also not taken into
consideration the oversight of newly discovered evidence, which had already been presented to
Defendant Jennifer Katherine Yates-Weller, to the Illinois Workers’ Compensation Commission,
2

Collinsville, Illinois, Workers’ Compensation Commission Administrator Edward Lee, to Illinois
Assistant Attorney General Samantha Costello #6325586, and to the Third Judicial Circuit,
Madison County, Edwardsville, IL., Judge David W. Dugan, during the proceedings concerning
amended Illinois Workers’ Compensation Act Claim #15WC27577, which on September 29,
2017, became Illinois Workers’ Compensation Occupational Disease Act claim #17 WC 028585,
before evolving to become the May 14,2018, Third Judicial Circuit, Madison County,
Edwardsville, IL., Writ of Mandamus complaint No. 18-MR-131, and is now, as of October 17,
2018, in the State of Illinois Appellate Court, Fifth District, as General No. 5-18-0498WC, which
had not been presented to this Court due to the persistently repeated federal trial date
postponements. The Court here has also mistakenly neglected to address, and/or has chosen to
ignore, the blatantly intrinsic fraud under Title 18 U.S.C. § 1001 perpetrated by Defendant
Krista Findlay and Defendant attorney Andrew Toennies in their collaborative fraudulent
September 9,2015, EEOC “POSITION STATEMENT OF UNIQUE PERSONNEL
CONSULTANTS, INC. TO NOTICE OF CHARGE OF DISCRIMINATION FILED BY JOHN
BUMPHUS”, and the extrinsic fraud perpetrated by the various defense attorneys in
collectively coming together to repeatedly deny the ADA status of the PTSD-disabled pro se
Plaintiff John Dan Bumphus, Jr., on the record and in response to his pro se Discovery requests,
along with ignoring the interference, and psychologically assaultive detriment, of the blatant
misconduct perpetrated by Defendant Jennifer Katherine Yates-Weller, and her co-Defendant
law firm partners at Hennessy & Roach, P.C., on behalf of the Defendant workers’ compensation
insurer SYNERGY Coverage Solutions, L.L.C., who was duly informed on August 18,2015, of
the PTSD-disabled pro se Plaintiff John Dan Bumphus, Jr.’s, mental health disability, as thenchosen agent, Defendant Jennifer Katherine Yates-Weller on November 23,2015, willfully

3

violated The Mental Health and Developmental Disabilities Act (740ILCS 110/1), and the
Health Insurance Portability and Accountability Act (HIPAA), as she interfered with the PTSDdisabled pro se Plaintiff John Dan Bumphus, Jr.’s, rights under the United States Constitutional
law, Title 42 §12101, of the Americans with Disabilities Act (ADA) of 1990 as Amended,
“interference” provision, with respect to his ADA rights, under 42 U.S.C. § 12203(b), which is
broader than the anti-retaliation provision, in protecting any individual who is subject to
coercion, threats, intimidation, or interference with respect to any of his ADA rights, by
committing the Illinois Felony Code § 720 ILCS 5/17-3 violation of forging, and presenting fake
official Illinois Workers’ Compensation Commission Subpoenas, to the PTSD-disabled pro se
Plaintiff John Dan Bumphus, Jr.’s mental health care provider/psychiatrist Mirza Baig, M.D., in
an effort to illicitly attempt to forcefully gain access to his mental health records.

To be accepted under Rule 60(c) “Timing and Effect of the Motion, this motion under
Rule 60(b), of the Federal Rules of Civil Procedure, “Corrections Based on Clerical
Mistakes; Oversights and Omissions.”, in this matter must be made within a reasonable timeand for reasons (1) “mistake” (2), “newly discovered evidence” and (3) “extrinsic fraud,
intrinsic fraud, misrepresentation, or misconduct by an opposing party”, no more than a
year after the August 30,2018, entry of the judgment or order.

Therefore, the PTSD-disabled pro se Plaintiff John Dan Bumphus, Jr., by way of Rule
60(a), of the Federal Rules of Civil Procedure, “Corrections Based on Clerical Mistakes;
Oversights and Omissions.”, and under the United States Constitutional law, Title 42 §12101,
of the Americans with Disabilities Act (ADA) of 1990 as Amended, which includes an

4

“interference” provision with respect to his ADA rights, under 42 U.S.C. § 12203(b), which is
broader than the anti-retaliation provision, in protecting any individual who is subject to
coercion, threats, intimidation, or interference with respect to any of his ADA rights, before
docketing any appeal of this matter with the 7th Circuit Appellate Court, now respectfully
moves this Honorable Court for relief from the final Judgment and Order, for the reasons of a
mistake of Law being made, along with and in addition to the existence of newly discovered
prima facie evidence that, with reasonable diligence, could not have been discovered in time to
move for a new trial under Rule 59(b), in addition to the intrinsic and extrinsic fraud, and
misrepresentations perpetrated by the collective Defendants, of the August 30,2018, Judgment
and Order in the above noted Civil Action, which was received by the PTSD-disabled pro se
Plaintiff John Dan Bumphus, Jr., by U.S.P.S., on September 8,2018, while he was a patient at
Barnes Jewish Hospital in St Louis, Missouri, having been admitted there on September 5,2018,
for research and to recover from a sudden bout of waist down temporary paralysis, brought on by
the same July, 2015, Defendant employer UniQue Personnel Consultants, Inc.,-disputed spinal
stenosis condition, which developed, as was reported on the PTSD-disabled pro se Plaintiff John
Dan Bumphus, Jr.’s first evening of employment as a result of a 2006 anterior/posterior spinal
fusion surgery in the L4-5 region of his lower back.

It is plain and clearly, above all other factors, an irrefutable matter of factual United
States Constitutional law, that on June 11,2015, Defendant UniQue Personnel Consultants, Inc.,
hired for employment the already PTSD-disabled American citizen pro se Plaintiff John Dan
Bumphus, Jr., who, since 1995,20 years before the 2015 date of his hiring, during the time frame
of his hiring and employment, and still today, has been covered, and protected by, Title 42

§12101, of the Americans with Disabilities Act (ADA) of 1990 as Amended, due to a permanent,
Social Security Administration-acknowledged, Medicare Insurance-covered, DSM CodeDescription F43.10-Posttraumatic Stress Disorder disability, which includes coverage by the
“interference” provision with respect to his ADA rights, under 42 U.S.C. § 12203(b), which is
broader than the anti-retaliation provision, in protecting any individual who is subject to
coercion, threats, intimidation, or interference with respect to any of his ADA rights. Title I of
the ADA prohibits employers with 15 or more employees (including religious entities) from
disability discriminating in hiring, promotions, training, and other privileges of employment. It
also forbids asking questions about an applicant's disability. Title I also requires that employers
make a reasonable accommodation to the known physical or mental limitations of otherwise
qualified individuals with disabilities, unless it results in undue hardship.

Under Rule 60(a), of the Federal Rules of Civil Procedure, “Corrections Based on
Clerical Mistakes; Oversights and Omissions.”, this Court may correct a clerical mistake
or a mistake arising from oversight or omission whenever one is found in a judgment,
order, or other part of the record. The Court may do so on motion or on its own, with or
without notice. But after an appeal has been docketed in the appellate court and while it is
pending, such a mistake may be corrected only with the appellate court’s leave.

I.

Rule 60(b), of the Federal Rules of Civil Procedure, “Grounds for Relief
from a Final Judgment, Order, or Proceeding.”; (b)(l)-mistake,
inadvertence, surprise, or excusable neglect.

6

Mistake #l.-On Pages ID #1092 thru #1093, of the August 30,2018, Judgment and
Order Memorandum, this Court wrote, “Bumphus does not contend that he had a record of an
impairment or was regarded as having an impairment. Thus, the question is whether he actually
has a physical or mental impairment that substantially limited a major life activity under the
ADA’s first definition of disability. Major life activities include, but are not limited to, caring for
oneseIf, performing manual tasks, walking, seeing, hearing, speaking, breathing, learning, and
working.” Steffen v. Donahoe, 680 F.3d 738,745-46 (7th Cir. 2012). When determining whether
a disability “substantially limits” a person from performing such an activity, courts consider “the
nature and severity of the impairment; the duration or expected duration of the impairment and
the permanent or long term impact, or the expected permanent or long term impact of or
resulting from the impairment., .generally, short-term, temporary restrictions, with little or no
long-term impact, are not substantially limiting and do not render a person disabled for purposes
of the ADA.
“Bumphus maintains that his spinal stenosis and PTSD rendered him disabled under the
ADA. However, there is insufficient evidence in the record establishing that Bumphus is
disabled within the meaning of the ADA. Bumphus testified that his back pain, not his PTSD,
was the only problem he had while working for UniQue. He further testified that he was able to
perform nearly all aspects of his warehousing job and that his back pain did not hinder his ability
to be productive. Bumphus states that he was able to run multiple tables and he believed that he
was doing a good job in his position. Although Bumphus procured a physician’s note requesting
that he be exempt from mandatory overtime “that requires heavy lifting,” lifting limitations do
not qualify as a disability under the ADA.”

Pro se Plaintiffs Rebuttal to Mistake #1.- The PTSD-disabled pro se Plaintiff John
Dan Bumphus, Jr., was an employee of the Defendant UniQue Personnel Consultants, Inc., until
July 17,2015. In paragraph (1.) of the “IV. FACTS IN SUPPORT OF CLAIM”, in the March
22,2016-filed plausible federal Employment Discrimination Complaint of the PTSD-disabled
pro se Plaintiff John Dan Bumphus, Jr., it is noted on the record that he had been, years before
his June 11,2015 initial interview for employment with the Defendant UniQue Personnel
Consultants, “officially designated and acknowledged” by the Social Security Administration to
being PTSD-disabled. In paragraph (10.) of the “IV. FACTS IN SUPPORT OF CLAIM”, in the
March 22,2016-filed plausible federal Employment Discrimination Complaint of the PTSDdisabled pro se Plaintiff John Dan Bumphus, Jr., he noted that on his July 17,2015 last day of
employment, he presented Defendant Krista Findlay, the Human Resources Manager/office
agent for the Defendant UniQue Personnel Consultants’ Glen Carbon, Illinois, office, a copy of
his 2014 book “Necessary Candor”, wherein he underlined and discussed with her the passages
in pages 80 & 81 which acknowledged his ongoing psychological treatment, as a disabled
employee, for having had the generalized anxiety disorder psychological symptoms of a PostTraumatic Stress Disorder (PTSD). Thereby, UniQue Personnel Consultants hired PTSDdisabled American citizen John Dan Bumphus, Jr., and subsequently after being duly informed,
knowingly dismissed the PTSD-disabled pro se Plaintiff John Dan Bumphus, Jr., who was, and
still is, protected by Title 42 §12101, of the Americans with Disabilities Act (ADA) of 1990 as
Amended, which includes the “interference” provision with respect to his ADA rights, under 42
U.S.C. § 12203(b), which is broader than the anti-retaliation provision, in protecting any
individual who is subject to coercion, threats, intimidation, or interference with respect to any of
his ADA rights.

8

In Paragraph (3.) of the March 22,2016-filed “IV. FACTS IN SUPPORT OF CLAIM”,
of the PTSD-disabled pro se Plaintiff John Dan Bumphus, Jr.’s Employment Discrimination
Complaint, it was established for the record that the already PTSD-disabled pro se Plaintiff John
Dan Bumphus, Jr., officially, and legally, began the ADA accommodation process on his June
21,2015, first evening of employment, by notifying the Defendant UniQue Personnel
Consultants, Inc.’s, On Site Coordinator, Dana Felton, of his spinal stenosis disability, “due to a
2006 spinal fusion surgery, and that the bending, straining, and lifting was causing discomfort to
his back at the point which he perceived to be the (L4-5) point of that surgery”; therefore, a
notice of disability was clearly and timely made to the Defendant employer UniQue Personnel.
And, “at that point, an employer’s liability is triggered for failure to provide accommodations.”
Hendricks-Robinson v. Excel Corp., 154 F.3d 685, 693 (7th Cir. 1998) (internal quotation marks
omitted). After an employee has disclosed that he has a disability, the ADA requires an employer
to “engage with the employee in an ‘interactive process’ to determine the appropriate
accommodation under the circumstances.” E.E. O. C. v. Sears, Roebuck & Co., 417 F.3d 789, 805
(7th Cir. 2005) (quoting Gile v. United Airlines, Inc., (7th Cir. 2000)).
The post July 13,2015, midnight dispute which the PTSD-disabled pro se Plaintiff John
Dan Bumphus, Jr., had, with Defendant UniQue Personnel Consultants, Inc.’s, 2nd Shift
YAZAKI warehouse Supervisor Donna May about his spinal stenosis disability, led to
Defendant UniQue Personnel Consultants, Inc.’s Human Resources Manager/office agent for the
Defendant UniQue Personnel Consultants’ Glen Carbon, Illinois, office, Krista Findlay, initially
making the proper legal decision of correctly later that morning of July 14,2015, granting him a
verbal accommodation by telephone, whereby for the next two shifts, he was not accosted by
Donna May with any further requests for unscheduled overtime heavy lifting. However, after the

9

July 16,2015, second shift, Donna May again badgered the PTSD-disabled pro se Plaintiff John
Dan Bumphus, Jr., taunting him about not joining in on the unscheduled overtime heavy lifting
tasks, in spite of the reasonable accommodation earlier granted by Krista Findlay, which led to
the July 17,2015 onset date of the gradual, insidious process accident, which led to the PTSDdisabled pro se Plaintiff John Dan Bumphus, Jr., sustaining a sudden, severe emotional shock.
The PTSD exacerbation process began during a verbal employment dispute meeting at
the Respondent's Glen Carbon, Illinois, office concerning a pattern of repeated unscheduled
overtime requests which required that the PTSD-disabled pro se Plaintiff John Dan Bumphus, Jr.,
participate in a series of awkwardly painful, uncomfortable lifting tasks which brought distress to
the L4-5 region of his back, due to his having a rod, and two pins, placed there from a 2006
spinal fusion surgery.
During the dispute conversation, the Defendant UniQue Personnel Consultants’ Human
Resource Administrator, Krista Findlay, was at that time arbitrarily and capriciously reversing
the management position she had taken only three days earlier on July 14,2015, of providing the
PTSD-disabled pro se Plaintiff John Dan Bumphus, Jr., by telephone, a verbal reasonable
accommodation pertaining to his complaint of lower-back pain. Defendant UniQue Personnel
Conultants’ Human Resource Administrator, Krista Findlay was also suddenly challenging the
veracity of the employee's spinal fusion surgery assertion.
By way of explaining his back pain medical issue position during the dispute, the PTSDdisabled pro se Plaintiff John Dan Bumphus, Jr., had on that July 17,2015 date, provided
Defendant UniQue Personnel Consultants’ Human Resource Administrator, Krista Findlay, with
his personal medical June 15, 2015, CT-scan documentation, from Barnes Jewish Hospital, in St.
Louis, Missouri, which he had obtained from the Maryville, Illinois, office of his primary

10

medical provider David Yablonsky, D.O., in an effort to present medical documentary proof, as
to the reality of his having a rod, and two pins, in the L4-5 region of his back.
Furthermore, and in addition to challenging the veracity of the PTSD-disabled pro se
Plaintiff John Dan Bumphus, Jr.’s, spinal fusion surgery assertion, after informing him that he
would be required to present further medical documentary evidence proof, on his primary care
doctor's office stationary, before his back-claim complaint could even officially be considered by
the corporate administrators, Defendant UniQue Personnel Consultants’ Human Resource
Administrator, Krista Findlay then went on to: 1.) disregard the PTSD-disabled pro se Plaintiff
John Dan Bumphus, Jr.’s immediate personal presentation to her, of his 2014 book "Necessary
Candor", wherein he then, and there, underlined the specific passages on pgs. 80 & 81 in the
book, which were directly on point, and pertinent in the identification and disclosure of, his
Social Security Administration-acknowledged mental-health disability, as she continued to
provoke the semantic memories within the mind of the PTSD-disabled pro se Plaintiff John Dan
Bumphus, Jr., by absolutely ignoring, declining and foregoing acknowledgement of, the
simultaneous and verbally expressed onset occurrence, and existence of, a work-related
exacerbation of the employee's medically diagnosed permanent, Social Security Administrationacknowledged, Medicare Insurance-covered, DSM Code-Description F43.10-Posttraumatic
Stress Disorder disability, which includes coverage by the “interference” provision with respect
to his ADA rights, under 42 U.S.C. § 12203(b), PTSD mental-health disability; before she 2.)
subjected the employee to the adverse psychological impact of an Illinois Workers’
Compensation Act §23:21 Retaliatory discharge, which further caused another sudden, severe
emotional shock to the mind of the PTSD-disabled pro se Plaintiff John Dan Bumphus, Jr.„ by
summarily dismissing him from employment, despite the fact that he had thoroughly, and

li

successfully, worked every moment of his (4) scheduled shifts that week, from July 13, through
July 16,2015, for the Defendant UniQue Personnel Consultants, and was being dismissed
without the Defendant UniQue Personnel Consultants ever responsibly choosing to perform the
legislated task of taking the time to engage the PTSD-disabled employee in the required
Reasonable Accommodation Interactive process covered by both Title 42 § 12111 (9), in
addition to their ignoring their legislated task set forth by the §23:68 Interactive Process for
Disability under the Illinois Workers’ Compensation Act.

The Defendant UniQue Personnel has now admitted under oath, in Document 83, filed
January 12,2017, (Page ID #444) “Defendant UniQue Personnel Consultants’ Amended
Response to Request #6 of Plaintiffs First Set of Requests for Admission”, in the United States
District Court for the Southern District of Illinois Case No.: 3:16-cv-00312-SMY-SCW, John
Dan Bumphus, Jr., et. al., wherein the Defendant UniQue Personnel Consultants stated in
admission that on July 17,2015, John Dan Bumphus, Jr. handed Krista Findlay a copy of a book
entitled “Necessary Candor,” and that the following passage in tins book, found on pages 80 and
81 therein, was highlighted with yellow marker: “I am now, by way of the Social Security
Administration, officially designated and acknowledged as a psychologically disabled person
due to my experiences as an employee with the TIMEC Corporation. Yes, I am a person who has
actually and officially been rendered disabled by racism in the American workplace. I am still in
treatment for the post-traumatic emotional stress disorder symptoms purposely inflicted upon me
by those within the TIMEC Company, Inc.”
That particular above-stated federal civil employment litigation evidentiary admission
irrevocably establishes that before his dismissal from employment on the July 17,2015 onset

12

date of the verbal employment dispute meeting at the Defendant UniQue Personnel’s Glen
Carbon, Illinois, office concerning a pattern of repeated unscheduled overtime requests which
required that the PTSD-disabled pro se Plaintiff John Dan Bumphus, Jr., participate in a series of
awkwardly painful, uncomfortable lifting tasks which brought distress to the L4-5 region of his
back, due to his having a rod, and two pins, placed there from a 2006 spinal fusion surgery,
which caused a disabling exacerbation of his previously-diagnosed Social Security
Administration-acknowledged, DSM Code-Description F43.10-Posttraumatic Stress Disorder of
John Dan Bumphus, Jr., the Defendant UniQue Personnel Consultants, Inc., was aware and duly
informed of his active PTSD-disability status which covered him, as an American citizen, with
all of the United States Constitutional Law protections provided under Title 42 §12101, of the
Americans with Disabilities Act (ADA) of 1990 as Amended, including the “interference”
provision with respect to his ADA rights, under 42 U.S.C. § 12203(b), which is broader than the
anti-retaliation provision, in protecting any individual who is subject to coercion, threats,
intimidation, or interference with respect to any of his ADA rights, and yet to this day they have
declined and refused to engage the Plaintiff in the Reasonable Accommodation Interactive
process covered by both Title 42 § 12111 (9), in addition to their ignoring the legislated task set
forth by the §23:68 Interactive Process for Disability under the Illinois Workers’ Compensation
Act. Aside from not engaging the PTSD-disabled pro se Plaintiff John Dan Bumphus, Jr. , in the
federal law Title 42 § 12111 (9) interactive process, the collective Defendants UniQue Personnel
Consultants, Inc., Defendant SYNERGY Coverage Solutions, L.L.C., Defendant Jennifer
Katherine Yates-Weller, Defendant Hennessy & Roach, P.C., and Defendant Andrew Toennies,
have all collectively coerced, threatened, lied, intimidated, and illegally interfered, in violation of
the aforementioned “interference” provision, with respect to the PTSD-disabled pro se Plaintiff

13

John Dan Bumphus, Jr.’s ADA rights, under 42 U.S.C. § 12203(b), which is broader than the
anti-retaliation provision, in protecting any individual who is thereby subject to protection.
A July 6,2005, aortic dissection heart attack thoracic stent surgery which the PTSDdisabled pro se Plaintiff John Dan Bumphus, Jr., endured, included a post-operative pleural
effusion procedure, which resulted in his sustaining an infection in his L4-5 spinal region, which
was discovered in April of2006. On August 8,2008, the anterior reconstruction portion of an
L4-5 spinal fusion surgery was accomplished, with the posterior aspect of the placing a rod, and
two pins occurring on September 12,2006.
Lumbar spinal stenosis (LSS) is a medical condition in which the spinal canal narrows
and compresses the nerves at the level of the lumbar vertebrae. Spinal stenosis may affect the
cervical or thoracic region, in which case it is known as cervical spinal stenosis or thoracic spinal
stenosis. Lumbar spinal stenosis can cause low back pain, abnormal sensations, and the absence
of sensation (numbness) in the legs, thighs, feet, or buttocks, or loss of bladder and bowel
control. The PTSD-disabled pro se Plaintiff John Dan Bumphus, Jr., was recently hospitalized
from September 5,2018, through September 9,2018, after suddenly experiencing temporary
paralysis in both legs.
Also, the official transcript copy of the August 18,2015, Respondents’ insurer,
Defendant SYNERGY Coverage Solutions, L.L.C.’s “Employee Contact” recorded telephone
conversation between the PTSD-disabled pro se Plaintiff petitioner/employee John Dan
Bumphus, Jr., and Cathy Gober of Synergy Coverage Solutions, L.L.C., wherein John Dan
Bumphus, Jr. again officially points out for the record that he was PTSD-disabled, had been in
psychological counseling for over 20 years, and was at that time seeing psychiatrist Dr. Baig at
Wellspring Resources (now Centerstone) in Alton, Illinois, who had arranged a follow-up

14

appointment to arrange
Code-Description

supplemental counseling due to the diagnosed exacerbation of his DSM

F43.10-Posttraumatic Stress Disorder condition. The above-mentioned

conversational transcript establishes that the Defendant UniQue Personnel Consultants, Inc.,
along with their workers’ compensation insurer,
L.L.C

co-Defendant SYNERGY Coverage Solutions,

had both been duly and officially informed by John Dan Bumphus, Jr.’s ongoing and

permanent PTSD disability status by August 18,2015.

The pre-existin

g PTSD-disabled employee John Dan Bumphus, Jr. has, from June 21,

2015, through December 19,2017, and unto this current date, presented personal, confidential
and official physical and mental health medical information and documentation, some of which
is protected by The Mental Health and Developmental Disabilities Act (740ILCS 110/1) , and
the Health Insurance

Portability and Accountability Act (H1PAA), covering the time frame of

July 11,2013, through December 11,2017,

from Associated Physicians Group, of Edwardsville,

Illinois, and Centerstone, of Alton, Illinois.
Respectfully, for this Court to rule that the PTSD-disabled pro se Plaintiff John Dan
not contend that he had a record of an impairment or was regarded as
Bumphus, Jr., “...does
having an impairment. Thus, the question is whether he actually has physical or mental
impairment that substantially limited a major life activity under the ADA’s first definition of
disability.”, is a mistake.
PTSD is covered by the Social Security Administration, and Medicare, as a disability
nstitution Law Americans with Disabilities Act (ADA), as amended in
under the United States Co
2009...President George H. W.

Bush first signed the United States Constitutional Law Americans

with Disabilities Act in 1990...

15

'

The pre-existing PTSD-disabled pro se Plaintiff John Dan Bumphus, Jr. was initially
professionally treated with counseling for a work-related Post Traumatic Stress Disorder episode
on February 2 of 1995.

The pre-existing PTSD-disabled pro se Plaintiff John Dan Bumphus, Jr., has been locally
diagnosed over the past seven years by his treating psychiatrist, Mirza Baig, M.D., of
Centerstone, in Alton, Illinois, with a Social Security Administration-acknowledged, Medicare
Insurance-covered, DSM Code-Description F43.10-Posttraumatic Stress Disorder, which had
been evidenced by flashbacks, nightmares, anxiety, anger outbursts, difficulty in avoiding
thoughts, diminished interest in activities, difficulty sleeping, hypervigilence, exxagerated startle
response, and efforts to avoid things that remind him of trauma.

Previously in 1995, according to the "Findings of Fact" of Walnut Creek, California,
Workers* Compensation Appeals Board (WCAB) Presiding Judge George W. Mason, Jr., in case
#WCK0023185, the PTSD-disabled pro se Plaintiff John Dan Bumphus, Jr., suffered a California
Labor Code Section 3208.3 cumulative stress injury to his psyche, which was caused and
imposed upon him, by a campaign of an arbitrary and capricious barrage of racial discrimination,
combined with unethical General Counsel and Human Resource Administration behavior, at the
hands of my former employer, the TIMEC Corporation of Vallejo, California,

This initial mental health injury legal finding was further substantiated by the 1998
federal civil trial jury verdict, in John Bumphus vs. TIMEC, C-95-3400, before U.S. Federal
District Judge Susan Illston in San Francisco, California, where a subsequent jury finding, for the

16

Intentional Infliction of Emotional Distress, was also made against the Defendant TIMEC
Corporation.
According to the American Psychological Association (APA) possible symptoms
associated with the PTSD condition which has permanently disabled the PTSD-disabled pro se
Plaintiff John Dan Bumphus, Jr., are, re-experiencing, avoidance, negative cognition and mood,
and arousal. Re-experiencing involves spontaneous memories of the traumatic event, recurrent
dreams related to it, flashbacks or other intense or prolonged psychological distress. Avoidance
refers to avoiding the distressing memories, thoughts, feelings or external reminders of the event.
Negative cognitions and mood represents countless feelings, from a persistent and distorted
sense of blame of self or others, to estrangement from others or markedly diminished interest in
activities, to an inability to remember key aspects of the event. Arousal is marked by irritable,
angry, aggressive, reckless or self-destructive behavior, sleep disturbances, hyper-vigilance or
related problems (APA, 2013). Most people have some stress-related reactions after a traumatic
event, but not everyone gets PTSD. PTSD symptoms usually start soon after the traumatic event,
but they may not appear until months or years later. Individuals with PTSD experience many of
the symptoms listed above for well over a month and cannot function as they were able to prior
to the event. Signs and symptoms of PTSD usually begin within several months of the event.
However, symptoms may not occur until many months or even years following the trauma.
Those who develop PTSD may not experience all of the symptoms and behaviors listed above.
The Americans with Disabilities Act (ADA) does not contain a list of medical conditions that
constitute disabilities. Instead, the (ADA) has a general definition of disability that each person
must meet on a case by case basis (EEOC Regulations ..., 2011). A person has a disability if
he/she has a physical or mental impairment that substantially limits one or more major life

17

activities, a record of such an impairment, or is regarded as having an impairment (EEOC
Regulations ..,,2011). However, according to the Equal Employment Opportunity Commission
(EEOC), the individualized assessment of virtually all people with a Post Traumatic Stress
Disorder (PTSD) will result in a determination of disability under the (ADA); given its inherent
nature, (PTSD) will almost always be found to substantially limit the major life activity of brain
function (EEOC Regulations ...,2011). The exacerbation disturbance, regardless of its trigger,
causes clinically significant distress or impairment in the individual’s social interactions,
capacity to work or other important areas of functioning. It is not the physiological result of
another medical condition, medication, drugs or alcohol.
Additionally, insofar as the EEOC position on being required to work with back pain
disability distress is concerned, in the 2007 EEOC filed suit in the U.S. District Court for the
Central District of Illinois, Peoria Division Civil Action No. 07 C 1154, which was tried
before U.S. Magistrate John A. Gorman, a federal court jury in Peoria returned a June 3,2011
verdict of $600,000.00 against AutoZone, Inc. for failing to provide a reasonable
accommodation to a disabled sales manager. In the lawsuit brought by the EEOC, AutoZone
was charged with requiring a sales manager to perform certain tasks, including mopping
floors, that violated his medical restrictions. The sales manager who worked at the company’s
Macomb, Ill., retail store until 2003, is disabled with permanent back and neck impairments.
The EEOC presented evidence that mopping floors was a non-essential function of the sales
manager position that could have been reassigned to other employees, and that the employee
could perform all of the essential functions of his job. The sales manager testified that he
asked not to be assigned mopping and supported his request with documentation of his
impairment The EEOC’s evidence at trial indicated that in 2003, new store management

18

refused the request and required the employee to mop, leading to further injury and
necessitating a medical leave.
The EEOC charged that the company’s actions violated the Americans with
Disabilities Act (ADA), which requires that employers make reasonable accommodations to
the known physical limitations of employees with disabilities. Under the ADA, a reasonable
accommodation may include the elimination or modification of a non-essential job duty, or
the transfer of a non-essential job duty to another employee.
“Any employer who thinks that the EEOC is reluctant to take cases to trial or that
ordinary juries in courts will shy away from returning big verdicts in ADA cases ought to
readjust his thinking in a hurry,” said John Hendrickson, the EEOC’s regional attorney in
Chicago. “Juries well understand that providing reasonable accommodations to employees
with disabilities is critical to keeping them on the job and moving the economy forward.
They get it, and employers should too.”
The government’s litigation effort was supervised by EEOC Supervisory Trial
Attorney Gregory Gochanour. At trial, the EEOC was represented by Trial Attorneys Justin
Mulaire and Aaron DeCamp. Mulaire said, “The jury sent an important message today.
Employers should take requests for accommodations seriously, and make every reasonable
effort to enable qualified individuals with disabilities to do their jobs and earn a living.”

19

Mistake 2-Defendants’ Discovery Responses were allowed to pointedly disavow
acknowledgment of the ADA Disability status of the PTSD-disabled pro se Plaintiff John
Dan Bumphus, Jr.
The PTSD-disabled pro se Plaintiff John Dan Bumphus, Jr., now brings to this Court’s
attention, the reality and evidence of another ongoing mistake, under Rule 60(b)(1) of the
Federal Rules of Civil Procedure, which was initially allowed by the original Magistrate Donald
G. Wilkerson (DGW), to enter these proceedings during the 2016 Discovery process, when the
collective Defendants’ counsels were allowed by the original Magistrate Donald G. Wilkerson
(DGW) to errantly declare, without restriction, in their responsive pleadings, and over the
repeated arguments made by the PTSD-disabled pro se Plaintiff John Dan Bumphus, Jr., that this
Court’s legal acknowledgement and acceptance of John Dan Bumphus, Jr.’s Social Security
Administration-acknowledged, Medicare Insurance -covered, DSM Code-Description F43.10
Posttraumatic Stress Disorder disability was a question and matter of Law; when, in fact, it was
actually a Constitutional Law-protected, previously federal jury-trial adjudicated and resolved
Fact of Medical Evidence, which had already been accepted and acknowledged by the Social
Security Administration as a disability, which was, from the outset, bein

ignored in

their blatant legal disregard responses.
Specifically, in the September 9,2016, “DEFENDANT JENNIFER YATES WELLER’S
ANSWERS AND OBJECTIONS TO PLAINTIFF’S FIRST SET OF INTERROGATORIES”,
prepared by Defense counsel Paul Gamboa (ARDC #6282923), of Gordon & Rees LLP, after
being affirmed under oath by Defendant Jennifer Yates-Weller on September 7,2016, repeatedly
stated in response to Interrogatories #1,3,4, 5 & 6, which directly sought information pertaining
to her actions as the attorney dealing with a workers’ compensation legal matter involving the
20

PTSD-disabled pro se Plaintiff John Dan Bumphus, Jr., repeatedly offered the boilerplate answer
which entailed the phrase, “Defendant objects to the characterization of Plaintiff as “disabled”,
on the bases(sic) that said characterization is argumentative an improper, and on the additional
basis that whether a claimed affliction actually constitutes an impairment under the Americans
with Disabilities Act (“ADA”) is a determination of law.”
As previously stated, in the official transcript copy of the August 18, 2015, “Employee
Contact” recorded telephone conversation between the PTSD-disabled pro se Plaintiff John Dan
Bumphus, Jr., and Cathy Gober of Synergy Coverage Solutions, L.L.C., Defendant UniQue
Personnel Consultants. Inc.’s Workers’ Compensation Insurance carrier Defendant SYNERGY
Coverage Solutions, L.L.C., who hired Defendant Jennifer Yates-Weller, and her partnering law
firm Defendant Hennessy & Roach, P C., on August 20,2015, to defend against John Bumphus’
claim, wherein John Dan Bumphus, Jr. again officially pointed out in the transcript record that
he was PTSD-disabled, had been in psychological counseling for over 20 years, and was at that
time seeing psychiatrist Dr. Mirza Baig at Wellspring Resources (now Centerstone) in Alton,
Illinois, who had arranged a follow-up appointment to arrange supplemental counseling due to
the diagnosed exacerbation of his DSM Code-Description F43.10-Posttraumatic Stress Disorder
condition. The above-mentioned conversational transcript again establishes irrevocably that the
Defendant UniQue Personnel Consultants, Inc., along with their workers’ compensation insurer,
co-Defendant SYNERGY Coverage Solutions, L.L.C., had both been duly and officially
informed by John Dan Bumphus, Jr.’s ongoing and permanent PTSD disability status by August
18, 2015. Therefore, there was not ever any actual legal question remaining for anyone, on
September 9,2016, to ponder as to whether, or not, the PTSD-disabled pro se Plaintiff John Dan
Bumphus, Jr., was actually covered and protected by United States Constitutional Law under

21

I

Title 42 §12101, of the Americans with Disabilities Act (ADA) of 1990 as Amended, including
the “interference” provision with respect to his ADA rights, under 42 U.S.C. § 12203(b), which
is broader than the anti-retaliation provision, in protecting any individual who is subject to
coercion, threats, intimidation, or interference with respect to any of his ADA rights.

On November 16,2016, the PTSD-disabled pro se Plaintiff John Dan Bumphus, Jr., filed
a Motion to Compel to original Magistrate Donald G. Wilkerson (DGW), along with a copy of
his 2014 book “Necessary Candor”, in an effort to present evidence of the PTSD-disabled pro se
Plaintiff John Dan Bumphus, Jr.’s, pre-hire Social Security Administration-acknowledged,
Medicare Insurance -covered, DSM Code-Description F43.10 Posttraumatic Stress Disorder
disability status into the record. After scheduling a December, 2016, telephone conference
hearing date to resolve the matter of the PTSD-disabled pro se Plaintiff John Dan Bumphus,
Jr.’s, pre-hired Social Security Administration-acknowledged, Medicare Insurance -covered,
DSM Code-Description F43.10 Posttraumatic Stress Disorder disability status in a group setting,
original Magistrate Donald G. Wilkerson chose the very morning of the scheduled telephone
conference to recuse himself from this case, without ever resolving the implementation of the
incomplete Americans with Disabilities Act (ADA) Discovery response issues.

The only Magistrate-allowed Discovery adjustment which was permitted, under the
purview of the replacement Magistrate, is in the Document 83, filed January 12,2017, (Page ID
#444) “Defendant UniQue Personnel Consultants’ Amended Response to Request #6 of
Plaintiffs First Set of Requests for Admission”, in the United States District Court for the

22

Southern District of Illinois Case No.: 3:16-cv-00312-SMY-SCW, John Dan Bumphus, Jr., et.
al., wherein the Defendant UniQue Personnel Consultants stated in admission that on July 17,
2015, John Dan Bumphus, Jr. handed Krista Findlay a copy of a book entitled “Necessary
Candor,” and that the following passage in this book, found on pages 80 and 81 therein, was
highlighted with yellow marker: “I am now, by way of the Social Security Administration,
officially designated and acknowledged as a psychologically disabled person due to my
experiences as an employee with the TIMEC Corporation. Yes, I am a person who has actually
and officially been rendered disabled by racism in the American workplace. I am still in
treatment for the post-traumatic emotional stress disorder symptoms purposely inflicted upon me
by those within the TIMEC Company, Inc.”
That particular above-stated federal civil employment litigation evidentiary admission
irrevocably establishes that before his dismissal from employment on the July 17,2015 onset
date of the disabling exacerbation of his previously-diagnosed Social Security Administrationacknowledged, DSM Code-Description F43.10-Posttraumatic Stress Disorder of John Dan
Bumphus, Jr., the Defendant UniQue Personnel Consultants, Inc., was aware and duly informed
of his active PTSD-disability status which covered him, as an American citizen, with all of the
United States Constitutional Law protections provided under Title 42 §12101, of the Americans
with Disabilities Act (ADA) of 1990 as Amended, and yet to this day they have declined and
refused to engage the Plaintiff in the Reasonable Accommodation Interactive process covered by
both Title 42 § 12111 (9), in addition to their ignoring their legislated task set forth by the
§23:68 Interactive Process for Disability under the Illinois Workers’ Compensation Act.
Also, the official transcript copy of the August 18,2015, Respondents’ insurer
SYNERGY Coverage Solutions, L.L.C.’s “Employee Contact” recorded telephone conversation

23

between the PTSD-disabled pro se Plaintiff petitioner/employee John Dan Bumphus, Jr., and
Cathy Gober of Synergy Coverage Solutions, wherein John Dan Bumphus, Jr. again officially
points out for the record that he was PTSD-disabled, had been in psychological counseling for
over 20 years, and was at that time seeing psychiatrist Dr. Baig at Wellspring Resources (now
Centerstone) in Alton, Illinois, who had arranged a follow-up appointment to arrange
supplemental counseling due to the diagnosed exacerbation of his DSM Code-Description
F43.10-Posttraumatic Stress Disorder condition. The above-mentioned conversational transcript
establishes that the Defendant UniQue Personnel Consultants, Inc., along with their workers’
compensation insurer, co-Defendant SYNERGY Coverage Solutions, L.L.C., had both been duly
and officially informed by John Dan Bumphus, Jr.’s PTSD disability status by August 18,2015.
There exists more than ample legal evidence to support the PTSD-disabled pro se
Plaintiff John Dan Bumphus, Jr. ’s legal theory that the Defendant UniQue Personnel
Consultants, Inc., their co-Defendant supervisory office agent Krista Findlay, their co-Defendant
ad hoc General Counsel attorney Andrew G. Toennies, their co-Defendant Workers’
Compensation insurance provider Synergy Coverage Solutions, L.L.C., along with their coDefendant workers’ compensation insurance defense attorney Jennifer Yates-Weller and her coDefendant partnering law firm of Hennessy & Roach, P.C., have all collectively conspired to
willfully, and in an unreasonable manner, against the PTSD-disabled pro se Plaintiff John Dan
Bumphus, Jr., who was, from before the time he was drug-screened, hired, and began working
for the Defendant UniQue Personnel Consultants, Inc., covered by all of the United States
Constitutional Law protections provided under Title 42 § 12101, of the Americans with
Disabilities Act (ADA) of 1990 as Amended, which includes the “interference” provision with
respect to his ADA rights, under 42 U.S.C. § 12203(b), which is broader than the anti-retaliation

24

provision, in protecting any individual who is subject to coercion, threats, intimidation, or
interference with respect to any of their ADA rights.

In Paragraph (3.) of the March 22,2016-filed “IV. FACTS IN SUPPORT OF CLAIM”,
of the PTSD-disabled pro se Plaintiff John Dan Bumphus, Jr.’s Employment Discrimination
Complaint, it was established for the record that the already psychologically disabled John Dan
Bumphus, Jr., officially, and legally, began the ADA accommodation process on his June 21,
2015, first evening of employment, by notifying the Defendant UniQue Personnel Consultants,
Inc. ’s, On Site Coordinator, Dana Felton, of his spinal stenosis disability; “at that point, an
employer’s liability is triggered for failure to provide accommodations.” Hendricks-Robinson v.
Excel Corp., 154 F.3d 685, 693 (7th Cir. 1998) (internal quotation marks omitted). After an
employee has disclosed that he has a disability, the ADA requires an employer to “engage with
the employee in an ‘interactive process’ to determine the appropriate accommodation under the
circumstances.” E.E.O.C. v. Sears, Roebuck & Co., 417 F.3d 789, 805 (7th Cir. 2005) (quoting
Gile v. United Airlines, Inc., (7th Cir. 2000)).
The pre-existing PTSD-disabled employee John Dan Bumphus, Jr. has, from June 21,
2015, through December 19, 2017, and unto this current date, presented verbal notice and
information, along with presenting personal, confidential and official physical and mental health
medical information and documentation, most of which is protected by The Mental Health and
Developmental Disabilities Act (740ILCS 110/1), and the Health Insurance Portability and
Accountability Act (HIPAA), covering the time frame of July 11,2013, through December 11,
2017, from Associated Physicians Group, of Edwardsville, Illinois, and Centerstone, of Alton,
Illinois. In response, and throughout that time frame, Defendant UniQue Personnel Consultants,

25

Inc., Defendant SYNERGY Coverage Solutions, L.L.C., Defendant Jennifer Katherine YatesWeller, Defendant Hennessy & Roach, P.C., and Defendant Andrew Toennies, and their platoon
of legal representative associates, have collectively and summarily repeated their stubbornly
opined ongoing denials of the existence of his disability in unison to various governmental
investigative entities, without any substantive inquiry into, or investigation thereof, the plethora
of presented evidence, which includes the March 2016 presentation of his complete post-2012
psychiatric treatment medical file, which the PTSD-disabled pro se Plaintiff John Dan Bumphus,
Jr., attests could now be considered in this instance as another illegal, frivolous, and
unconstitutionally unnecessary stalling tactic, which is clearly violative of the protected act
provisions of Title 42 § 12112-Discrimination, of the Americans with Disabilities Act (ADA) of
1990 as Amended.

Rule 60(b)(2) of the Federal Rules of Civil Procedure “Grounds for Relief from a
Final Judgment, Order, or Proceeding.”; (b)(2)-newly discovered evidence that, with
reasonable diligence, could not have been discovered in time to move for a new trial under
Rule 59(b).

There have been three postponement rescheduling date delays to the originally scheduled
July, 2017, trial date in this matter. During that time frame, the PTSD-disabled pro se Plaintiff
John Dan Bumphus, Jr., while fighting for, amending and defending his ADA-based
exacerbation Illinois Workers’ Compensation Occupational Disease Act claim #17 WC028585,
has patiently been looking forward to presenting the evidence compiled therein to this Court.

26

The PTSD-disabled pro se Plaintiff John Dan Bumphus, Jr. therefore now also informs
the Court under Rule 60(b)(2) of the Federal Rules of Civil Procedure of the newly discovered
evidence pertaining to the September 29,2017-filed “Illinois Workers’ Compensation
Commission Application for Adjustment of Claim (Application for Benefits)”, which was
accepted by the Illinois Workers Compensation Commission, under Section § 310/19 (a) (3) of
the Illinois Workers’ Compensation Occupational Disease Act.
For the PTSD-disabled pro se Plaintiff John Dan Bumphus, Jr., to, on September 29,
2017, amend his Illinois Workers’ Compensation Act claim #15 WC27577 before its November
11, 2017 final disposition by Third Judicial Circuit, Madison County, Edwardsville, IL., Judge
David W. Dugan, in Case No.# 17-MR-000187, to the Illinois Occupational Disease Act claim
#17WC028585 has the legislated effect of enforcing the Illinois Occupational Disease Act
Section §310/19 (a) (3) statute, which provides that “.. .Whenever any claimant misconceives
his remedy and files an application for adjustment of claim under the Workers’ Compensation
Act and it is subsequently discovered, at any time before final disposition of such cause that the
claim for injury or death which was the basis for such application should properly have been
made under this Act, then the application so filed under the Workers’ Compensation Act
may be amended in form, substance or both to assert claim for such disability or death
under this (Occupational Disease) Act and it shall be deemed to have been so filed as
amended on the date of the original (Workers Compensation Act) filing thereof, and such
compensation may be awarded as is warranted by the whole evidence pursuant to the
provisions of this (Occupational Disease) Act. When such amendment is submitted, further or
additional evidence may be heard by the Arbitrator or Commission when deemed necessary;
provided, that nothing in this Section contained shall be construed to be or permit a waiver of

27

any provisions of this Act with reference to notice, but notice, if given shall be deemed to be a
notice under the provisions of this Act if given within the time required herein.”

In response to the September 29,2017 filing of the PTSD-disabled pro se Plaintiff John
Dan Bumphus, Jr.’s Illinois Occupational Disease Act claim #17WC028585, Defendant UniQue
Personnel Consultants, Inc., their workers’ compensation insurance provider, Defendant
SYNERGY Coverage Solutions, L.L.C., and the designated Respondent’s Defense attorney.
Defendant Jennifer Yates-Weller, a law firm partner with Defendant Hennessy & Roach, P.C.,
on March 12,2018, deliberately filed a spurious Motion to Dismiss the Occupational Disease
Act claim #17WC028585, by utilizing the imaginary insistence of a “res judicata” prohibition
against its filing. Amazingly, Collinsville, Illinois, Workers’ Compensation Commission
Arbitrator Edward Lee, although obligated in the nature of both public and statutory duty, to
correctly apply the provision of Section § 310/19 (a) (3) of the Illinois Workers’ Compensation
Occupational Disease Act, abrogated his clear duty under RULE 63-CANON 3 of the ILLINOIS
CODE OF JUDICIAL CONDUCT to be faithful to the law, and to maintain professional
competence during the performance of his adjudicative responsibilities, and dismissed the
Illinois Occupational Disease Act claim #17WC028585, on May 10, 2018, “due to res judicata”.
John Dan Bumphus, Jr. immediately filed the Case No. #18-MR-131 pro se complaint for a Writ
of Mandamus with the same Third Judicial Circuit, Madison County, Edwardsville, IL., court of
Judge David W. Dugan, on May 14,2018, which was served by a Madison County Sheriffs
Deputy to Collinsville, Illinois, Workers’ Compensation Commission Arbitrator Edward Lee, on
June 19, 2018 to, in effect, have a Mandamus hearing about the improper Arbitrator’s “res
judicata” application to an Illinois Workers’ Compensation Occupational Disease Act statute,

28

Section § 310/19 (a) (3), involving the Case No.# 17-MR-000187, which Judge David W. Dugan
of the Third Judicial Circuit, Madison County, Edwardsville, IL, had actually worked on himself,
until its final resolution of November 11,2017,43 days subsequent to John Dan Bumphus, Jr. s
September 29,2017, filing of Illinois Occupational Disease Act claim #17WC028585.
The Illinois Workers’ Compensation Commission arbitrarily chose to join Collinsville,
Illinois, Workers’ Compensation Commission Arbitrator Edward Lee as a co-Defendant to the
May 14,2018-filed pro se complaint for a Writ of Mandamus Case No. #18-MR-131 against
Collinsville, Illinois, Workers’ Compensation Commission Arbitrator Edward Lee in the Third
Judicial Circuit, Madison County, Edwardsville, IL., court of Judge David W. Dugan, on July 17,
2018, as the now co-Defendant parties at that point came to be represented by Illinois Assistant
Attorney General Samantha Costello, #6325586, who had been assigned to the case on July 17,
2018, before entering her appearance on July 18,2018, as she then immediately moved the Court
for an extension of time of 30 days, up to and including August 20,2018, to answer or otherwise
plead to this PTSD-disabled Employee/Petitioner pro se Plaintiff John Dan Bumphus, Jr.’s Writ
of Mandamus Complaint.
On September 14,2018, Third Judicial Circuit, Madison County, Edwardsville, IL., court
of Judge David W. Dugan, after accepting Illinois Assistant Attorney General Samantha
Costello’s false statement under oath that PTSD-disabled pro se employee/petitioner John Dan
Bumphus, Jr.’s complaint was, at that time, under review by the Illinois Workers’ Compensation
Commission, incorrectly stated that he did not “have the authority” to rule on the Mandamus
complaint. Therefore now, an Appeal to the Illinois Appellate Court, Fifth District has on
October 17,2018 been filed and docketed as General No.: 5-18-0498WC.

29

PTSD-disabled pro se employee/petitioner John Dan Bumphus, Jr., has a clear right to the
minimally owed $38,940.00 payment for 177 weeks of past due temporary total disability (TTD)
at the rate of $220.00 per week scheduled by Illinois Workers’ Compensation Commission
Occupational Disease Act claim Case #17 WC 028585, because in Section 19 (a) 1 of the Illinois
Workers’ Compensation Act, it states that, “...a) When an employee becomes unable to work
due to an accidental or occupational disease arising out of or in the course of his or her
employment, or alleges that he or she is unable to work, the employer, individually or by his or
her agent, service company or insurance carrier, shall, within 14 calendar days after notification
or knowledge of such inability or alleged inability to work:
1) begin payment of temporary total compensation, if any is then due.”
In addition, the Post Traumatic Stress Disabled pro se employee/petitioner John Dan
Bumphus, Jr., is also eligible for $258,700.00 of “Person-as-a-Whole” Compensation under
section 8(d)(2) of the Illinois Workers’ Compensation Act which is “that percentage of 500
weeks of $517.40 that the partial disability bears to total disability.” When the petitioner sustains
an injury that involves neither a disfigurement (section 8(c)) nor a scheduled loss (8(e)), it will
be compensated under the “man as a whole” provisions of section 8(d)(2). Section 8(d)(2)
addresses certain minimum PPD awards based on man as a whole in this catch-all category
which can encompass injuries to the head, face neck, back, or bums that cause disability, skin
disorders, concussions, broken teeth, electrical shocks, hernias, groin strains, posttraumatic stress
disorder, depression, pulmonary disorders, heart attacks, strokes, reflux dystrophy, fibromyalgia,
chest contusions, industrial poisoning, and disc injuries/ herniations. An award under this section
may be made without objective findings.

30

The PTSD-disabled pro se employee/petitioner John Dan Bumphus, Jr., is also due to
receive an additional Section 19(1) 50% penalty payment, to either or both of the above sums, for
the deliberative scheming delays by the Respondent, their insurer, and their insurer’s defense
attorneys, in denying him payment under the Illinois Workers’ Compensation Commission
Application for Adjustment of Claim (Application for Benefits) Occupational Diseases Act
Claim #17WC028585, which was properly filed on September 29, 2017.

A substantial portion of the plethora of compiled evidence supportive documentation
presented to Defendant Jennifer Yates-Weller, the Illinois Workers’ Compensation Commission,
and Collinsville, Illinois, Workers’ Compensation Commission Arbitrator Edward Lee, which
pro se Plaintiff John Dan Bumphus, Jr., offered to substantiate his Illinois Workers’
Compensation Commission Application for Adjustment of Claim (Application for Benefits)
Occupational Diseases Act Claim #17WC028585, which was properly filed on September 29,
2017, was e-filed with the Third Judicial Circuit, Madison County, Edwardsville, IL., court of
Judge David W. Dugan, on July 26,2018. This is evidence which the PTSD-disabled pro se
Plaintiff John Dan Bumphus, Jr., intended to present at the thrice-postponed United States
District Court for the Southern District of Illinois Case No.: 3:16-cv-00312-SMY-SCW, John
Dan Bumphus, Jr., et. al., trial in October of 2018, which has been dismissed by this Court on
August 30,2018.

CONCLUSION
In Conclusion, the permanently disabled, Social Security Administration-acknowledged,
Medicare Insurance-covered, DSM Code-Description F43.10-Posttraumatic Stress Disorder-

31

disabled pro se Plaintiff John Dan Bumphus, Jr., asserts for the record in this Motion that his
United States Constitutional Law protections under Title 42 §12101, of the Americans with
Disabilities Act (ADA) of 1990 as Amended, including the “interference” provision, with respect
to his ADA rights, under 42 U.S.C. § 12203(b), which is broader than the anti-retaliation
provision, in protecting any individual who is subject to coercion, threats, intimidation, or
interference with respect to any of his ADA rights, the Mental Health and Developmental
Disabilities Act (740 ILCS 110/1), the Health Insurance Portability and
Accountability Act (HIPAA), and under Section § 310/19 (a) (3) of the Illinois Workers,
Compensation Occupational Disease Act, have clearly been overlooked, ignored, routinely
abused and violated, as a matter of illicitly unlawful form and practice, since July 17, 2015 by
the collective Defendants listed here. The additional fact that the PTSD-disabled pro se Plaintiff
John Dan Bumphus, Jr., has personally been emotionally spiraling through an onerously
burdensome and unnecessary gauntlet of litigation over the past three-and-one-half years, while
simultaneously being medically counseled and treated for the duly informed exacerbation of his
revealed mental health condition, is quantitatively more significant than just a subjectively cruel
twist of misfortune.

WHEREFORE, PTSD-disabled pro se Plaintiff John Dan Bumphus, Jr., who after
initially informing the Defendant employer UniQue Personnel Consultants, Inc., on his June 21,
2015 first night of employment about his spinal stenosis disability due to his having a rod, and
two pins in his L4-5 spinal area, due to a 2006 spinal fusion surgery, before directly notifying
Defendant employer UniQue Personnel Consultants, Inc., on the July 17,2015, last day of
employment, of his permanent Social Security Administration-acknowledged, Medicare

32

Insurance-covered, DSM Code-Description F43.10-Posttraumatic Stress Disorder disability,
which includes coverage by the “interference” provision with respect to his ADA rights, under
42 U.S.C. § 12203(b), PTSD mental-health disability, and then subsequently informing
Defendant SYNERGY Coverage Solutions, L.L.C., on August 18,2015, of his ongoing medical
treatment for the work-related exacerbation of his permanent psychological PTSD disability,
hereby respectfully requests and moves that this Court, after considering this motion, under the
auspices of Rule 60(a), of the Federal Rules of Civil Procedure, “Corrections Based on
Clerical Mistakes; Oversights and Omissions.”, addresses and corrects the clerical mistakes,
and the mistakes arising from oversight and/or omission, pertaining wherever any may now be
found in Documents 137 and 138 in this present case, concerning any and all of the
DISMISSALS of the PTSD-disabled pro se Plaintiff John Dan Bumphus, Jr.’s, claims against
Defendant UniQue Personnel Consultants, Inc., Defendant SYNERGY Coverage Solutions,
L.L.C., Defendant Jennifer Katherine Yates-Weller, Defendant Hennessy & Roach, P.C., and
Defendant Andrew Toennies, which were filed by this Court on August 30,2018.

Respectfully submitted, this 6th day of December, 2018, by John Dan Bumphus, Jr.
/s/John Dan Bumphus. Jr., pro se

John Dan Bumphus, Jr., pro se
221 South Myrtle
Edwardsville, Illinois 62025-1510
iohn.bumphus@yahoo.com

CC:

33

Filed on December 6,2018, at the United States District Court for the Southern District of
Illinois. Emailed copies sent to all Defendant attorneys on December 6,2018.

Paul Gamboa
Ryan T. Brown
Gordon & Rees Scully Mansukhani, LLP
1 North Franklin St.
Suite 800
Chicago, IL 60606
Pgamboa@gordonrees.com
rtbrown@,gordonrees.com

Counsel for Jennifer Katherine Yates-Weller and Hennessy & Roach, P.C.

J. Hayes Ryan
Jonathan B. Blakley
Gordon & Rees Scully Mansukhani, LLP
1 North Franklin St.
Suite 800
Chicago, IL 60606
haYesrvan@gordonrees.com
iblaklev@gordonrees.com
Tel:

(312)565-1400

Fax:

(312)565-6511

Counsel for UniQue Personnel Consultants, Inc.

34

Andrew G. Toennies,/?ro se
Lashly & Baer, LLC
714 Locust St.
St. Louis, MO 63101
atoennies@lasMvbaer.com
Tel:

(314)436-8347

Fax:

(314)621-6844

Robert J. Franco
Scott O. Reed
Rachel V. Bassett
Franco & Moroney, LLC
500 W. Madison St.
Suite 2440
CMcago, Illinois 60661
Robert.franco@francomoronev.com
Scott.reed@irancomoronev.com
Rachel.bassett@francomoronev.com
Tel:

(312)466-1000

Fax:

(312)469-1011

Counsel for Synergy Coverage Solutions, LLC

35

r
Case 3:16-cv-00312-SMY-GCS Document 146 Filed 08/09/19 Page ! of 3 Page ID #1343

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF ILLINOIS
JOHN DAN BUMPHUS, JR.,
Plaintiff,

)
)
)
)

)

vs.

Case No. 16-CV-312-SMY-GCS

)

UNIQUE PERSONNEL CONSULTANTS, )
)
et al.,
Defendants.

)
)

MEMORANDUM AND ORDER
YANDLE, District Judge:
Pending before the Court is Plaintiff John Bumphus, Jr.’s Motion for Relief from Final
Judgment and Order (Doc. 139). For the following reasons, Plaintiffs motion is DENIED.
Background
In March 2016, Plaintiff brought an employment discrimination suit against his former
employer, UniQue Personnel Consultants, Inc. (“UniQue”), for failure to accommodate a disability
and wrongful termination, based on multiple federal statutes. Plaintiff also asserted statutory
claims against various other parties arising out of his employment with UniQue.
Plaintiffs claims against all defendants were dismissed in two separate Orders. The claims
against Defendants Jennifer Katherine Yates-Weller, Krista Findlay, and Andrew Toennies were
dismissed on March 30, 2018 (Doc. 126). In that same Order, all claims against UniQue were
dismissed, except for a single claim under the Americans with Disabilities Act (“ADA’ ).
On August 30, 2018, rejecting Plaintiffs argument that his spinal stenosis and
posttraumatic stress disorder rendered him disabled under the ADA, the Court granted UniQue s

Page 1 of 3

r
Case 3:16-cv-00312-SMY-GCS Document 146 Filed 08/09/19 Page 2 of 3 Page ID #1344

*

motion for summary judgment as to the ADA claim and entered final judgment (Docs. 137, 138).
Plaintiff now requests to be relieved from the final judgment under Federal Rule of Civil Procedure
60.
Discussion
Pursuant to F.R.C.P. 60(a), the Court may correct a clerical mistake or a mistake arising
from oversight or omission whenever one is found in a judgment, order, or other part of the record.
The Court may do so on motion or on its own, with or without notice. After an appeal has been
docketed in the appellate court and white it is pending, such a mistake may be corrected only with
the appellate court's leave. Under F.R.C.P. 60(b), the Court may relieve a party or a party's legal
representative from a final judgment, order, or proceeding for the following reasons: (1) mistake,
inadvertence, surprise, or excusable neglect; (2) newly discovered evidence which by due
diligence could not have been discovered in time to move for a new trial under Rule 59(b); (3)
fraud (whether heretofore denominated intrinsic or extrinsic), misrepresentation, or misconduct by
an opposing part}'. See Fed. R. Civ. P. 60.
Here, while Plaintiff cites Rule 60(a) in his motion, he does not assert a clerical mistake
related to the judgement, order, or any part of the record; he simply disagrees with the Court’s
dismissal of his claims. As to Rule 60(b), relief under that provision is an extraordinary remedy
and is granted only in exceptional circumstances. The remedy is appropriate only when “the
[cjourt has patently misunderstood the party or has made a decision outside the adversarial issues
presented to the [cjourt by the parties, or has made an error not of reasoning but of
apprehension.” Bank of Waunakee v. Rochester Cheese Sales, Inc., 906 F.2d 1185, 1191 (7th
Cir.1990) (quoting Above the Belt, Inc. v. Mel Boharman Roofing, Inc., 99 F.R.D. 99, 101
(E.D.Va.1983)). In other words, the Court cannot grant Plaintiff relief under Rule 60(b)(1) simply

Page 2 of 3

r
T

Case 3:16-cv-00312-SMY-GCS Document 146 Filed 08/09/19 Page 3 of 3 Page ID #1345

because he disagrees with the prior rulings. The rulings were supported by facts and law, and the
undersigned did not misunderstand the parties or the issues.
Further, the “newly discovered evidence” Plaintiff submitted in support of his motion is
not new at all; the Court considered this evidence in rendering both prior rulings. In fact, Plaintiff
acknowledges that tire evidence is not new.
Conclusion
For the foregoing reasons, Plaintiff has failed to satisfy the requirements of F.R.C.P. 60.
Accordingly, his Motion for Relief from the Final Judgement and Order is denied.

IT IS SO ORDERED.
DATED: August 9,2019
STACIM. YANDLE
United States District Judge

Page 3 of 3

r

Umteb States
Court
of
appeals!
jfor tfje ^EbEiitf) Circuit
Chicago, MKnofe 60604
April 24,2020
By the Court:
] Appeal from the United
] States District Court for
] the Southern District of
] Illinois. -------

JOHN DAN BUMPHUS, JR.,
Plaintiff-Appellant,
No. 19-2621

v.

]

UNIQUE PERSONNEL CONSULTANTS,
et al.,
Defendants-Appellees.

] No. 3:16-cv-00312-SMY-GCS
]

] Staci M. Yandle,
] Judge.

ORDER
A review of the section of the brief captioned "Jurisdictional Statement" filed by
appellees reveal that appellees have not complied with the requirements of Circuit Rule
28(b). That rule requires an appellee to state whether or not the jurisdictional summary
in an appellant's brief is "complete and correct." If it is not, the appellees must provide
a "complete jurisdictional summary."
Appellees point out that appellant's Statement "is not complete and correct."
And, although appellees provide a jurisdictional statement, they fail to provide one that
is both complete andcorrect. Specifically, appellees' statement fails to identify with
specificity the "provision of the constitution" or "federal statute" involved in the case.
See Cir. Rule 28(a)(1). This information must be provided. It is insufficient to cite 28
U.S.C. § 1331 and, later on, use the acronym "ADA." Accordingly,
IT IS ORDERED that appellees file a paper captioned "Amended Jurisdictional
Statement" on or before May 1, 2020, that provides the omitted information noted above
and otherwise complies with all the requirements of Circuit Rule 28(b), and if
appellant's brief is not complete and correct, Circuit Court Rule 28(a) also.
IT IS FURTHER ORDERED, that the Clerk DISTRIBUTE, along with the briefs in
this appeal, copies of this order and appellees' "Amended Jurisdictional Statement" to
the assigned merits panel.

r
—y

1

<JL. A
‘ »

NONPRECEDENTIAL DISPOSITION
To be cited only in accordance with Fed. R. App. P. 32.1

Tlmtefr States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
Submitted May 19,2020*
Decided May 20, 2020
Before
JOEL M. FLAUM, Circuit Judge
ILANA DIAMOND ROVNER, Circuit Judge
AMY C. BARRETT, Circuit Judge
No. 19-2621
JOHN DAN BUMPHUS, JR.,
Plaintiff-Appellant,
v.
UNIQUE PERSONNEL
CONSULTANTS, et al.,
Defendants-Appellees.

Appeal from the United States District
Court for the Southern District of Illinois.
No. 16-CV-312-SMY-GCS
Stad M. Yandle,

Judge.

ORDER
John Bumphus, Jr., seeks to contest the rejection of his daims for wrongful
termination. After the district court entered its final judgment, Bumphus did not
promptly appeal. Instead, he filed a motion under Federal Rule of Civil Procedure 60(b),
which the district court denied, predpitating this appeal. We review only the district

* We have agreed to dedde this case without oral argument because the briefs
and record adequately present the facts and legal arguments, and oral argument would
not significantly aid the court. Fed. R. App. P. 34(a)(2)(C).

r

A
No. 19-2621

Page 2

court's denial of that Rule 60(b) motion and, because the court reasonably decided that
the motion did not warrant disturbing the underlying judgment, we affirm.
Bumphus applied to UniQue Personnel Consultants, a job-placement agency, in
2015. A few days later, he began work at a warehouse. Soon after, back pain prevented
him from completing his work. He told supervisors about his back conditions—
including spinal stenosis—and they told him to bring a doctor's note explaining his
limitations, which he did. In response, the warehouse offered him a different position
that paid less. Bumphus rejected the offer and did not return to the warehouse.
Bumphus sued UniQue and other defendants, and the case proceeded in two
stages. In the first stage, the district court considered claims that Bumphus brought
against defendants under Title VII of the Civil Rights Act of 1967,42 U.S.C. § 2000e-5,
the Age Discrimination in Employment Act, 42 U.S.C. § 6211, and under state law. The
court ruled that Bumphus had failed to state valid claims under these laws, but it
allowed to stand an additional claim, under the Americans with Disabilities Act
("ADA"), 42 U.S.C. § 12112, against UniQue. Bumphus appealed from the order
dismissing some of his claims, and this court ordered him to address whether it should
dismiss his appeal for lack of a final judgment. In response, Bumphus moved to
voluntarily dismiss the appeal. This court granted his motion and dismissed the appeal.
In the next stage, the district court granted UniQue's motion for summary
judgment on the ADA claim and entered its final judgment. Bumphus did not appeal
from that final judgment within the 30-day time limit. See Fed. R. App. P. 4(a)(1)(A).
Instead, over 90 days after the entry of judgment, he moved for relief from the
judgment under Federal Rule of Civil Procedure 60. The district court denied the
motion, reasoning that Bumphus had not shown a clerical mistake in the judgment,
see Fed. R. Civ. P. 60(a), nor had he presented newly discovered evidence or shown any
other exceptional reason for the court to grant relief under Rule 60(b).
On appeal, Bumphus devotes most of his brief to arguing that the district court
erred when it dismissed for failure to state a claim his discrimination and state-law
theories for relief. But the merits of that dismissal are not properly before us because
Bumphus did not appeal from the district court's judgment within the required 30 days
of its entry. See Fed. R. App. P. 4(a)(1)(A). Moreover, his Rule 60 motion, which he filed
over 90 days from the entry of the judgment, did not toll the 30-day deadline to appeal.
See Fed. R. App. P. 4; Blue v. Int'l. Bhd. of Elec. Workers, 676 F.3d 579, 583-84 (7th Cir.

r

No. 19-2621

Page 3

2012). Therefore, Bumphus's appeal, which he filed within 30 days of the denial of his
Rule 60 motion, is limited to the district court's denial of that post-judgment motion.
That brings us to the propriety of the denial of Bumphus's Rule 60 motion, which
we review deferentially for abuse of discretion. Dolin v. GlaxoSmithKline LLC, 951 F.3d
882,886 (7th Cir. 2020). Bumphus contends that the district court erred because he
presented new evidence that the court had not previously considered before entering
summary judgment for UniQue. Relief under Rule 60 based on "new" evidence is
allowed only when the movant, using reasonable diligence, could not have discovered
the evidence before judgment. See Fed. R. Civ. P. 60(b)(2). Bumphus asserts that he did
not have the evidence before judgment, but he does not say that he could not with
diligence have acquired it sooner. Without such an assertion, the district court could
permissibly deny the motion. See Gleason v. Jensen, 888 F.3d 847, 853 (7th Cir. 2018).
Moreover, Bumphus has not refuted the district court7 s conclusion that his evidence
merely duplicated what the court had already considered when ruling on the motion
for summary judgment, and thus was not new. The court therefore properly denied
Bumphus's post-judgment motion for relief.
We have considered Bumphus's remaining arguments, and none has merit.
AFFIRMED

